D                                                                        MINE SAFETY AND HEALTH


U.S. Department of Labor
I
S                                                                        ADMINISTRATION
C
U
S
S
I
O
N                          Office of Inspector General—Office of Audit
D
R
A
F
T




                                                                         MSHA'S ACCOUNTABILITY PROGRAM FACES
                                                                         CHALLENGES, BUT MAKES IMPROVEMENTS




                                                                                                     Date Issued:   September 28, 2012
                                                                                                  Report Number:      05-12-002-06-001
U.S. Department of Labor                                   September 2012
Office of Inspector General
Office of Audit                                            MSHA’S ACCOUNTABILITY PROGRAM
                                                           FACES CHALLENGES, BUT MAKES
                                                           IMPROVEMENTS
BRIEFLY…
Highlights of Report Number 05-12-002-06-001, issued       WHAT OIG FOUND
to the Assistant Secretary for Mine Safety and Health.
                                                           MSHA continues to face challenges in administering a
WHY READ THE REPORT                                        successful accountability program. To its credit, MSHA
                                                           has made recent changes to its organizational and
The Assistant Secretary for Mine Safety and Health         reporting structure and several revisions to policies and
directed the administrators for Coal Mine and Metal and    procedures to improve its accountability program. Most
Nonmetal Safety and Health to implement an                 notably, in February 2012, the Assistant Secretary
accountability program to validate management’s            elevated the program’s profile by formally establishing
effectiveness by conducting reviews of field activities    the Office of Assessments, Accountability, Special
and programs. In response, MSHA established an             Enforcement and Investigations. This branch will
accountability program in 1989. The purpose of the         monitor, track, and evaluate the effectiveness of
accountability program is to better focus accountability   corrective actions following internal reviews and
review activities on key indicators of MSHA’s              accountability audits.
performance and to prioritize limited accountability
review resources based on risk.                            Although overall there were significant improvements in
                                                           this program, we found that 1 of the 14
On June 3, 2011, Representative John Kline (R-MN),         recommendations we made in our 2007 audit report
Chairman of the United States House of                     was not fully implemented. This deficiency included the
Representatives Committee on Education and the             failure to fully utilize a corrective action tracking system.
Workforce, requested that the OIG evaluate MSHA’s          We also found that multiple deficiencies MSHA
accountability program to determine if it had              identified in its own accountability reviews recurred.
implemented the recommendations and corrected the          These deficiencies were related to inspections,
deficiencies identified in the OIG’s 2007 audit report     supervisory reviews, issuance of citations, and
and in its own accountability reviews.                     documentation. Moreover, we found that MSHA did not
                                                           implement or could not demonstrate it implemented 10
                                                           percent of corrective actions required by the
WHY OIG CONDUCTED THE AUDIT                                accountability reviews in our sample.

As part of our audit oversight responsibility and in
response to the congressional request we received, the     WHAT OIG RECOMMENDED
OIG performed work to answer the following questions:
                                                           We recommended the Assistant Secretary for Mine
1. Did MSHA implement corrective actions to address        Safety and Health direct MSHA to: (a) develop a robust
the recommendations in the OIG’s 2007 audit report?        oversight function that includes risk-based contingency
                                                           planning for resource management when it is necessary
2. Did MSHA implement corrective actions to address        to temporarily assign enforcement personnel to conduct
the recommendations in its own accountability review       major accident investigations and internal reviews; (b)
reports?                                                   provide management oversight of enforcement activities
                                                           that will ensure compliance with MSHA policies and
Our audit covered all 14 recommendations from our          procedures; (c) develop and implement a
2007 audit report and a statistical sample of 153          comprehensive root cause analysis training program for
findings and related corrective actions from MSHA          those who will be part of an accountability review team;
accountability reviews conducted during calendar years     and (d) require district managers and supervisors to
2009-2011.                                                 document the implementation of corrective actions.

READ THE FULL REPORT                                       The Assistant Secretary agreed with our
To view the report, including the scope, methodology,      recommendations and committed to developing and
and full agency response, goes to:                         implementing corrective actions.
http://www.oig.dol.gov/public/reports/oa/2012/05-12­
002-06-001.pdf.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
                                      Report No. 05-12-002-06-001
                                                           U.S. Department of Labor – Office of Inspector General



Table of Contents



Assistant Inspector General’s Report ......................................................................... 1


RESULTS IN BRIEF ....................................................................................................... 2


Objective 1 — Did MSHA implement corrective actions to address the

recommendations in the OIG’s 2007 audit report? .................................................... 4

         One deficiency recurred even after MSHA addressed the OIG's 

         recommendations. ................................................................................................ 4


         Finding 1 — While MSHA took action to address the 14 recommendations 

                     in our 2007 audit report, one deficiency recurred. ............................ 4


Objective 2 — Did MSHA implement corrective actions to address the

recommendations in its own accountability review reports? ................................... 5

         By not implementing corrective actions, MSHA increases the risk of 

         deficiencies recurring............................................................................................ 5


         Finding 2 — MSHA did not implement or could not demonstrate it
                     implemented 10 percent of corrective actions. ................................. 5

         Finding 3 — Corrective actions did not always resolve or prevent the
                     recurrence of deficiencies................................................................. 6


Recommendations ........................................................................................................ 9


Exhibits
         Exhibit 1 Findings and Recommendations from 2007 OIG MSHA Audit
                      Report............................................................................................. 13

         Exhibit 2 Number of MSHA Internal Review Findings by Type and
                      Calendar Year (CY) ........................................................................ 17

         Exhibit 3 Number of MSHA Internal Review Findings by District and
                      Calendar Year (CY) ........................................................................ 19

         Exhibit 4 Deficiencies and Corrective Actions in MSHA Accountability
                      Review Reports .............................................................................. 21

         Exhibit 5 MSHA's Recurring Deficiencies by Categories .................................... 47


Appendices
         Appendix A Background ..................................................................................... 51

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 53

         Appendix C Acronyms and Abbreviations .......................................................... 57

         Appendix D MSHA’s Response to the Draft Report............................................ 59




                                                                                            MSHA Faces Challenges
                                                                                         Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
                                      Report No. 05-12-002-06-001
                                                     U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                           Office of Inspector General
                                                   Washington, D.C. 20210




September 28, 2012

                              Assistant Inspector General’s Report

Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, VA 22209

On June 3, 2011, Representative John Kline (R-MN), Chairman of the United States
House of Representatives Committee on Education and the Workforce, requested that
the Office of Inspector General (OIG) evaluate the Mine Safety and Health
Administration’s (MSHA) accountability program to determine if it had implemented the
recommendations and corrected the deficiencies identified in our 2007 audit report1 and
in its own accountability reviews. In response to this request, we conducted an audit to
answer the following questions:

      1. Did MSHA implement corrective actions to address the recommendations
         in the OIG’s 2007 audit report?

      2.	 Did MSHA implement corrective actions to address the recommendations
          in its own accountability review reports?

Our audit covered all 14 recommendations from our 2007 audit report and a statistical
sample of 153 findings and related corrective actions from MSHA accountability reviews
conducted during calendar years (CY) 2009-2011. We reviewed the findings,
recommendations, corrective action plans and supporting documentation, federal laws
and regulations, MSHA policies and procedures, and interviewed key MSHA
headquarters, district, and field office officials. In addition, we performed data analysis
from a judgmental sample of high-risk findings to determine if the corrective actions had
successfully remedied the deficiencies. We performed fieldwork in 4 of 17 MSHA
districts. These included two Coal Mine Safety and Health (CMS&H) districts (8 and 11)
and two Metal and Nonmetal Mine Safety and Health (MNMS&H) districts (Rocky
Mountain and Northeastern).

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our

1
 MSHA’s Office of Coal Mine Safety and Health Needs to Strengthen its Accountability Program, Report Number 05­
07-002-06-001, August 24, 2007. See Exhibit 1 for list of 14 OIG recommendations.

                                                                                    MSHA Faces Challenges
                                                       1                         Report No. 05-12-002-06-001
                                                          U.S. Department of Labor – Office of Inspector General


findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

MSHA continues to face challenges in administering a successful accountability
program. To its credit, MSHA has made recent changes to its organizational and
reporting structure and several revisions to policies and procedures to improve its
accountability program. Most notably, in February 2012, the Assistant Secretary
elevated the program’s profile by formally establishing the Office of Assessments,
Accountability, Special Enforcement and Investigations. This branch will monitor, track,
and evaluate the effectiveness of corrective actions following internal reviews and
accountability audits.

Although overall there were significant improvements in this program, we found that 1 of
the 14 recommendations we made in our 2007 audit report was not fully implemented.
This deficiency included the failure to fully utilize a corrective action tracking system. We
also found that multiple deficiencies MSHA identified in its own accountability reviews
recurred. These deficiencies were related to inspections, supervisory reviews, issuance
of citations, and documentation. Moreover, we found that MSHA did not implement or
could not demonstrate it implemented 10 percent of corrective actions required by the
accountability reviews in our sample.2

These issues occurred because MSHA management had not developed a robust
oversight function to ensure it optimally: (1) managed resources and competing
priorities; (2) ensured district and field offices documented implementation of corrective
actions; (3) trained and directed accountability review teams to conduct rigorous root
cause analysis; and (4) provided adequate oversight of enforcement activities to ensure
compliance with MSHA policies and procedures. These are integral components of the
overall framework for providing miners with a safe and healthy work environment.

RECOMMENDATIONS

We recommend the Assistant Secretary for Mine Safety and Health: (1) develop a
robust oversight function that includes risk-based contingency planning for resource
management when it is necessary to temporarily assign enforcement personnel to
conduct major accident investigations and internal reviews; (2) provide management
oversight of enforcement activities that will ensure compliance with MSHA policies and
procedures; (3) develop and implement a comprehensive root cause analysis training
program for those who will be part of an accountability review team; and (4) require
district managers and supervisors to document the implementation of corrective actions.



2
    There was no particular pattern in the corrective actions MSHA did not take.

                                                                                      MSHA Faces Challenges
                                                            2                      Report No. 05-12-002-06-001
                                          U.S. Department of Labor – Office of Inspector General


MSHA’S RESPONSE

In response to our draft report, the Assistant Secretary for Mine Safety and Health
agreed with all of our recommendations and stated that MSHA was fully committed to
addressing the issues that are identified in this report. His response acknowledged that
MSHA has faced challenges while making changes and improvements to its
accountability program. Specifically, he noted that the agency had been
under-resourced from budget constraints and had suffered a loss of experience due to a
high turnover rate from retirements. He also stated that one of the programs he initiated
was a nationwide training program for all MSHA field office supervisors who directly
oversee the agency’s inspection program. The goal of this supervisory training program
is to improve MSHA’s application of policy and procedures, and to address deficiencies
in accountability audits.

The Assistant Secretary expressed concern with our statement that MSHA
headquarters was not aware that one of its districts did not complete monthly reports on
high risk deficiencies as a result of inadequate management oversight of enforcement
activities. He stated that MSHA had a system in place to monitor the status of corrective
actions from accountability reports. The OIG maintains that while MSHA headquarters
may have instituted such a system, the district in question neither had any knowledge of
nor utilized it.

The Assistant Secretary also expressed concern with our statement that MSHA
potentially increases the risk that unsafe working conditions in mines will not be
detected due to MSHA’s inadequate oversight of enforcement activities. He emphasized
that Congress gave mine operators the primary responsibility to prevent unsafe
conditions and practices in mines. Our statement and conclusion are based on the
requirements of the Mine Act that describe MSHA’s roles and responsibilities in setting
safety and health standards, identifying instances of non-compliance, and compelling
mine operators to take timely corrective actions. These are integral components of the
overall system for providing miners with a safe and healthy work environment.

The Assistant Secretary’s entire response is contained in Appendix D.




                                                                      MSHA Faces Challenges
                                            3                      Report No. 05-12-002-06-001
                                            U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective 1 — Did MSHA implement corrective actions to address the
              recommendations in the OIG’s 2007 audit report?

      One deficiency recurred even after MSHA addressed the OIG's 

      recommendations.


Although MSHA implemented corrective actions for all 14 recommendations in the
OIG’s 2007 audit report, we found that one of the deficiencies recurred in later years.
See Exhibit 1 for a listing of all 14 recommendations and corrective actions.

Finding 1 — While MSHA took action to address the 14 recommendations in our
            2007 audit report, one deficiency recurred.

Accountability reviews MSHA conducted during CYs 2009-2011 found that one
deficiency identified in the OIG’s 2007 audit report recurred. Specifically, one district did
not fully utilize an established tracking system for corrective actions.

The recurrence of this deficiency indicates that MSHA has not addressed its underlying
cause.

One of Four MSHA Districts Reviewed Did Not Use an Established Tracking System

Proposed corrective actions and their implementation should be tracked to ensure
timely and appropriate completion. The OIG’s 2007 report recommended that MSHA
develop and implement a tracking system to record and track the results of
accountability reviews. MSHA’s own Accountability Handbook required administrators
for CMS&H and MNMS&H to implement a system to track the results of accountability
reviews. In this audit, we found that one of the four districts we reviewed, CMS&H
District 8, did not utilize the tracking system during CYs 2009-2011.

As a result of inadequate management oversight, MSHA headquarters was not aware
that CMS&H District 8 did not utilize the tracking system until the OIG brought this fact
to its attention.

Without consistently using a tracking system, MSHA runs an increased risk of failing to
identify systemic and recurring deficiencies and instances in which corrective actions
have not been implemented.




                                                                        MSHA Faces Challenges
                                              4                      Report No. 05-12-002-06-001
                                                         U.S. Department of Labor – Office of Inspector General




Objective 2 — Did MSHA implement corrective actions to address the
              recommendations in its own accountability review reports?

        By not implementing corrective actions, MSHA increases the risk of deficiencies
        recurring.

Finding 2 — MSHA did not implement or could not demonstrate it implemented 10
            percent of corrective actions.

MSHA could not demonstrate it implemented 20 of the 187 (10 percent) corrective
actions in our sample.3 MSHA could not produce documentation to support the
implementation of 7 of the 20 corrective actions, and CMS&H District 8 reported
implementing the other 13 even though it had not. Of those 13 corrective actions, 5
were associated with high risk deficiencies because CMS&H District 8 did not:

    	 Initiate a 103(i) spot inspection4 sequence even though total emissions of

       methane in 24 hours in one mine exceeded the legal limit.


    	 Properly evaluate the citations it issued. Of 186 citations issued during the first
       quarter of FY 2009, inspectors designated 43 as “Significant and Substantial”
       (S&S). MSHA’s accountability review team later determined that an additional 44
       should have been so designated.

    	 Ensure mine operators corrected deficiencies in the required timeframe.

    	 Verify that inspectors documented samples collected at seal locations or the
       quality of the atmosphere behind the seals.

    	 Consistently update the MSHA tracking system for mines required to have 103(i)
       inspections.

In addition, MSHA headquarters requires districts to send monthly status reports on
high-risk deficiencies. We found no evidence that CMS&H District 8 had ever sent these
reports.

As a result of inadequate management oversight of enforcement activities, MSHA
headquarters was not aware of these problems until informed by the OIG. By not
providing adequate oversight of enforcement activities, MSHA potentially increases the
risk that unsafe working conditions in mines will not be detected.

3
  See Exhibit 4 for a detailed list of our sample of 153 findings and related corrective actions. We also categorized
the 153 findings by type (See Exhibit 2) and listed the number of findings by district (See Exhibit 3) for each calendar
year.
4
  103(i) spot inspections are conducted at irregular intervals in mines that liberate excessive quantities of methane or
other explosive gases during their operations.



                                                                                          MSHA Faces Challenges
                                                           5                           Report No. 05-12-002-06-001
                                                         U.S. Department of Labor – Office of Inspector General


Finding 3 — Corrective actions did not always resolve or prevent the recurrence
            of deficiencies.

In some cases, MSHA’s corrective actions did not successfully resolve or prevent the
recurrence of deficiencies identified during accountability reviews. These recurring
deficiencies related to supervisory review, issuance of citations, inspections, and
inadequate documentation. The success of any effort to reduce deficiencies hinges on
MSHA’s ability to identify the factors that cause them. The reviews we evaluated did not
consistently demonstrate a rigorous root cause analysis, and in some cases, lacked
evidence of an analysis.

MSHA was aware of the need to conduct rigorous root cause analysis of deficiencies
since at least 2007.

For example, the June 2007 MSHA Aracoma internal review report stated that:

         MSHA’s Accountability Program is fundamentally flawed in that
         weaknesses are identified but the root causes are not addressed to
         prevent recurrence of deficiencies. …The 2005 peer review reports for
         District 4 did not identify the root causes for the deficiencies found.
         Instead, they instituted corrective actions for the deficiencies without
         determining what caused them. As a result, subsequent peer reviews and
         the Aracoma internal review team found similar deficiencies. Effective
         corrective actions must recognize and correct the underlying root cause of
         any deficiency in order to prevent recurrence.

Further, the Acting Chief of MSHA’s Office of Program Policy Evaluation made a similar
observation to the Deputy Assistant Secretary for Operations in an internal
memorandum dated March 25, 2009:

         Root cause analysis proved elusive and in many cases simply was not
         conducted. Here, the enforcement programs found it difficult to go beyond
         simply identifying deficiencies. The Accountability Handbook, however, is
         clear that detailed and specific root cause analysis needs to explain why
         deficiencies occurred. The lack of rigorous root cause analysis is
         problematic because it leads to indirect and potentially ineffectual
         corrective actions (for example, staff meetings to resolve [either] narrower
         or individually based performance problems).

In addition to the OIG’s 2007 audit report, two others – the Upper Big Branch (UBB)
internal review report5 and the Independent Panel Assessment,6 both issued in March

5
  Internal Review of MSHA’s Actions at the Upper Big Branch Mine-South Performance Coal Company, Montcoal, 

Raleigh County, West Virginia (March 6, 2012)

6
  The Secretary of Labor requested that the National Institute for Occupational Safety and Health identify a panel of 

experts to conduct an independent assessment of MSHA’s internal review of its enforcement action at UBB. On 

March 22, 2012 the panel published “An Independent Panel Assessment of an Internal Review of MSHA 

Enforcement Actions at the Upper Big Branch Mine South.”


                                                                                         MSHA Faces Challenges
                                                           6                          Report No. 05-12-002-06-001
                                            U.S. Department of Labor – Office of Inspector General


2012, stressed the need for MSHA to conduct rigorous root cause analysis to correct
and prevent the recurrence of deficiencies.

The UBB report addressed the need to conduct rigorous root cause analysis. The report
stated that corrective actions for similar issues identified in past internal reviews did not
sufficiently address root causes of problems. Likewise, the Independent Panel
Assessment stated that MSHA failed to uncover the root cause of why an enforcement
action was or was not taken at UBB.

Because MSHA management did not conduct rigorous root cause analysis, the same
deficiencies were identified on subsequent accountability reviews. To MSHA’s credit,
the agency has committed to implement 86 recommendations identified by the UBB
internal review.

MSHA’s Corrective Actions With Respect to Work Shift Inspections Were Not Effective

MSHA did not conduct safety and health inspections on all working shifts for 228
(16 percent) metal/nonmetal mines out of the 1391 active mines in the 2 districts we
sampled.

MSHA’s policies and procedures require that safety and health inspections be
conducted on all working shifts of a mine (including weekend, night, and graveyard) to
identify safety and health violations that impact miners who do not work normal
business hours.

This deficiency recurred because MSHA did not conduct root cause analysis to identify
the reasons why inspectors did not conduct inspections on all working shifts. For
example, one MSHA report identified the root cause as, “[t]he field office supervisor
needs to monitor inspection reports and hold inspectors accountable for inspecting
mines on all working shifts.” This, however, is not a root cause, but instead a
recommendation which merely restates the issue. The actual root cause would have
been an explanation of why the supervisor failed to monitor inspection reports and hold
inspectors accountable. In another case, the root cause was noted as “[p]rocedures –
Failure to use/follow. Training – Understanding inadequate.” Again, the first part is a
restatement of the issue, and not a root cause. The second part of the statement more
closely resembles a root cause.

To assure that the policy is understood by all enforcement staff and consistently
applied, MSHA needs to clarify its MNMS&H policy for conducting inspections during
off- and weekend shifts.




                                                                        MSHA Faces Challenges
                                              7                      Report No. 05-12-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


Corrective Actions to Ensure MSHA Conducted All FARs and AAs Were Not Effective

MSHA did not conduct 57 percent (121 out of 212) of required Field Activity Reviews
(FARs), and 27 percent (58 out of 212) of required Accompanied Activity reviews (AAs)
at the four districts we sampled during FYs 2010-2011.

MSHA policies and procedures require supervisory reviews of the work performed by
inspectors and specialists. The purpose of these reviews is to evaluate the quality of
enforcement, determine if the level of enforcement is appropriate, and ascertain if the
inspection was conducted and documented in accordance with the Federal Mine Safety
and Health Act (Mine Act) of 1977 as amended by the Mine Improvement and New
Emergency Response (MINER) Act of 2006 and MSHA regulations, policies, and
procedures. MSHA requires CMS&H supervisors to complete two FARs and four AAs,
and MNMS&H supervisors to complete two FARs and one AA each fiscal year. Field
Activity reviews consist of a supervisor’s evaluation of inspection documentation. In an
Accompanied Activity review, the supervisor is present during a regular inspection and
observes the inspector’s actions.

This deficiency recurred despite the corrective actions MSHA took because the actions
taken did not address the root cause. Some reports either did not document a root
cause or identify one at all. For example, MSHA identified as a root cause the issue that
the field office supervisor needed to be held accountable for completing the required
number of supervisory reviews. This, in fact, was merely a restatement of the problem
and did not explain why the field office supervisor was not held accountable.

When MSHA does not conduct the required FAR and AA reviews, it may not adequately
address inspection deficiencies or inspector misconduct issues.

Corrective Actions to Address Other High-Risk Deficiencies Were Not Fully Effective

A number of high-risk deficiencies identified by MSHA during CY 2009 recurred during
CYs 2010 and 2011 at one or more of the four districts we sampled, although the
number of recurring deficiencies significantly decreased over time. These deficiencies
related to inadequate documentation, inspections, issuance of citations, and supervisory
reviews. See Exhibit 5 for a trend analysis of MSHA’s recurring deficiencies by
category.

MSHA Internal Review Reports Identified Similar Deficiencies

Two deficiencies in the accountability reviews were identified in internal review reports
for the Upper Big Branch, Crandall Canyon, Darby, Aracoma, Sago, and Jim Walters
accidents. They were: (1) inadequate supervisor/managerial oversight, and (2)
incomplete or inadequate inspections and documentation. In fact, the UBB report
concluded that the Accountability program as implemented in District 4 (where the UBB
accident occurred) did not always result in effective corrective actions because MSHA



                                                                         MSHA Faces Challenges
                                            8                         Report No. 05-12-002-06-001
                                         U.S. Department of Labor – Office of Inspector General


did not place adequate emphasis on identifying and implementing effective corrective
actions.

This recurrence of deficiencies in subsequent years resulted from accountability teams
not consistently conducting rigorous root cause analysis. Instead, district managers
trained inspectors and supervisors on procedures for documentation and complete
inspections, but not root cause analysis.

The MSHA Accountability Program Handbook (dated March 2008) states in part, that:

      “…beyond the identification of deficiencies, the purpose of this
      accountability program is to prevent the recurrence of deficiencies by
      addressing their root causes. Rigorous follow-up and monitoring of past
      problems will therefore be essential.”

The actions implemented by MSHA to correct deficiencies were not effective because
rigorous root cause analysis was not performed.

Because MSHA did not address the causes of the problems, the same deficiencies
recurred in subsequent years.

Recommendations

We recommend the Assistant Secretary for Mine Safety and Health: (1) develop a
robust oversight function that includes risk-based contingency planning for resource
management when it is necessary to temporarily assign enforcement personnel to
conduct major accident investigations and internal reviews; (2) provide management
oversight of enforcement activities that will ensure compliance with MSHA policies and
procedures; (3) develop and implement a comprehensive root cause analysis training
program for those who will be part of an accountability review team; and (4) require
district managers and supervisors to document the implementation of corrective actions.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
 Assistant Inspector General
  for Audit




                                                                     MSHA Faces Challenges
                                           9                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              10                      Report No. 05-12-002-06-001
            U.S. Department of Labor – Office of Inspector General




Exhibits





                                        MSHA Faces Challenges
             11                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              12                      Report No. 05-12-002-06-001
                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                    Exhibit 1
Findings and Recommendations from 2007 OIG MSHA Audit Report


                                               Did                                      Rec
Finding                           Type of              Rec
                Finding                      Finding         Recommendation         Implemented,      Source
Number                            Finding               #
                                             Recur?                                   Verified?
                                                             Develop a process
                                                             and criteria for the
                                                             selection of
                                                             activities to be
                                                             examined during
                                                             accountability
                                                             reviews that
                                                                                                      MSHA
                                                             emphasizes
          Criteria used to                                                                         Accountability
                                                        1    measures and                Y
          select activities                                                                         Handbook
                                                             indicators of
          reviewed during                                                                            AH08-III
                                                             CMS&H
          HQRs and DPRs did
                                   Design                    performance and
          not primarily focus
  1                                 and        N             provides the
          on CMS&H
                                  Planning                   possibility that any
          performance and did
                                                             activity (related to
          not adequately
                                                             any mine operation)
          consider all
                                                             could be selected.
          activities.
                                                             Prohibit District
                                                             Managers, or
                                                             anyone in their                          MSHA
                                                             subordinate chain                     Accountability
                                                        2    of command from
                                                                                         Y
                                                                                                    Handbook
                                                             selecting the                           AH08-III
                                                             activities to be
                                                             reviewed in DPRs.
                                                             Ensure that
                                                             accountability
                                                             review team                              MSHA
                                                             members cannot                        Accountability
                                                        3                                Y
                                                             independently                          Handbook
                                                             review work they                        AH08-III
                                                             have performed or
                                                             supervised.




          District peer reviews
                                  Impleme
  2       did not always                       N
                                   ntation                   Require that DPR
          include mine visits.
                                                             teams include at
                                                             least one                                MSHA
                                                             appropriate                           Accountability
                                                        4    individual from
                                                                                         Y
                                                                                                    Handbook
                                                             outside the District                    AH08-III
                                                             conducting the
                                                             review.




                                                                                       MSHA Faces Challenges
                                                        13                          Report No. 05-12-002-06-001
                                                       U.S. Department of Labor – Office of Inspector General



                                               Did                                      Rec
Finding                           Type of              Rec
                Finding                      Finding         Recommendation         Implemented,      Source
Number                            Finding               #
                                             Recur?                                   Verified?

                                                             Provide guidance                         MSHA
                                                             and instruction that                  Accountability
                                                             is more detailed on                    Handbook
                                                        5    specific procedures         Y           AH08-III
                                                             and tasks required
                                                             to complete an
                                                             effective DPR.
                                                             Establish a
                                                             minimum scope for
                                                             DPRs and HQRs
                                                             that includes at
                                                             least a review of                        MSHA
                                                             two non­                              Accountability
                                                        6    consecutive
                                                                                         Y
                                                                                                    Handbook
                                                             quarters of                             AH08-III
                                                             enforcement
                                                             documentation from
                                                             the preceding 12
                                                             months.
                                                             Require that the
                                                             timeframe for
                                                             completion of DPRs                       MSHA
                                                             and HQRs be                           Accountability
                                                        7    planned in a way to
                                                                                         Y
                                                                                                    Handbook
                                                             ensure an accurate                      AH08-III
                                                             and thorough
          District peer reviews                              review.
                                  Implem­
  3       lacked consistent                    N
                                  entation
          analyses.




                                                             Require that
                                                             DPRCs regularly
                                                             communicate to
                                                             discuss common                           MSHA
                                                             issues, resolutions                   Accountability
                                                        8    and best practices
                                                                                         Y
                                                                                                    Handbook
                                                             to ensure                               AH08-III
                                                             consistency and
                                                             compliance
                                                             nationwide.




                                                                                       MSHA Faces Challenges
                                                        14                          Report No. 05-12-002-06-001
                                                      U.S. Department of Labor – Office of Inspector General



                                              Did                                      Rec
Finding                         Type of               Rec
                Finding                     Finding         Recommendation         Implemented,      Source
Number                          Finding                # 
                                            Recur?                                   Verified?
                                                          Require HQR teams
                                                                                                     MSHA
                                                          to be involved in the
                                                                                                  Accountability
                                                       9 development of                 Y
                                                                                                   Handbook
                                                          appropriate
                                                                                                    AH08-III
                                                          corrective actions.
                                                          Require a timeframe
                                                          be established for                         MSHA
                                                          the development of                      Accountability
                                                      10  all corrective action         Y
                                                                                                   Handbook
                                                          plans resulting from                      AH08-III
                                                          DPRs.
                                                          Incorporate dates
          The development,                                into corrective action
          implementation, and Reporting                   plans for the                              MSHA
  4       monitoring of         and           N           implementation and                      Accountability
          corrective actions  Analysis                11  completion of                 Y
                                                                                                   Handbook
          needs improvement.                              actions resulting                         AH08-III
                                                          from DPRs and
                                                          HQRs.
                                                          Require a timely
                                                          evaluation by District
                                                          Managers to ensure
                                                          that completed                             MSHA
                                                          corrective actions                      Accountability
                                                      12  are adequately                Y
                                                                                                   Handbook
                                                          addressing the                            AH08-III
                                                          deficiencies
                                                          identified during
                                                          DPRs and HQRs.
                                                           Require that District
                                                           Offices utilize the
                                                           same tracking
          CMS&H had no                                     system, once it is
          centralized system                               developed and
          to record and track                              implemented by                            MSHA
                                Reporting
          deficiencies,                                    HQ, to record and                      Accountability
  5                               and         Y       13                                Y
          corrective actions,                              track the results of                    Handbook
                                Analysis
          and best practices                               their DPRs (e.g.,                        AH08-III
          identified during                                identified
          DPRs and HQRs.                                   deficiencies,
                                                           planned corrective
                                                           actions, potential
                                                           best practices, etc.)
                                                           Require that
                                                           identified issues,
          CMS&H did not                                    deficiencies,
          consistently                                     corrective actions
          communicate                                      and best practices                        MSHA
                                Reporting
          deficiencies,                                    be communicated                        Accountability
  6                               and         N       14                                Y
          corrective actions                               within a district’s                     Handbook
                                Analysis
          and best practices                               field offices and                        AH08-III
          resulting from DPRs                              disseminated
          and HQRs.                                        nationwide, as
                                                           appropriate, in a
                                                           timely manner.




                                                                                        MSHA Faces Challenges
                                                       15                            Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              16                      Report No. 05-12-002-06-001
                                    U.S. Department of Labor – Office of Inspector General


                                                                    Exhibit 2
Number of MSHA Internal Review Findings by Type and Calendar Year (CY)




Type of Finding                      CY 2009               CY 2010             CY 2011



1. Inspection Documentation                   36                   19                       5

2. Supervisory Review                           5                       9              -­
3. Issuance Enforcement
                                              23                        6                   4
   Activities
4. Inspection/Investigation
                                              17                        5              -­
   Process
5. Inspections Work
                                                7                  -­                       3
   Shifts/Hours
6. Sampling/Surveys                             4                  -­                       1

7. Mine Map/ Plan                               2                  -­                  -­

8. Training                                     7                  -­                  -­

Total by CY:                                 101                   39                  13



                                           Total (CY 2009-2011):                     153




                                                                MSHA Faces Challenges
                                     17                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              18                      Report No. 05-12-002-06-001
                                     U.S. Department of Labor – Office of Inspector General


                                                                      Exhibit 3
Number of MSHA Internal Review Findings by District and Calendar Year (CY)



District                             CY 2009            CY 2010              CY 2011

Coal District 8                             16                  18                   4
Coal District 11                            48                  15                   3
MNM Rocky Mountain                          16                   4                   4
MNM Northeastern                            21                   2                   2
Total by CY:                               101                  39                  13

                                      Total (CY 2009 - 2011):                      153




                                                                 MSHA Faces Challenges
                                      19                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              20                      Report No. 05-12-002-06-001
                                                                     U.S. Department of Labor – Office of Inspector General


                                                                      Exhibit 4
Deficiencies and Corrective Actions in MSHA Accountability Review Reports

                                 Deficiencies and Corrective Actions in MSHA Accountability Review Reports
              District/
       Report
 No.          Level of     CY                Finding                 Type*                             Corrective Action
        No.
              Review
  1     Not     D8/       2009 The Mine Activity Data forms 2000-     ID     The Assistant District Manager for enforcement will develop,
       Listed   DLR            22 for both inspection quarters               within 60 days of approval of this memorandum, Standard
                               were not completed to indicate                Operation Procedures (SOP) that require all inspection
                               accurate numbers under items; 13,             documentation to be maintained at the respective field office(s)
                               Number of Samples collected, a, b,            until the inspection has been completed. The SOP will be
                               c, d, e, and f. Item 16, Inspection           provided to all field office supervisors so it will be followed at all
                               Results (1), (2), (3), (4), b.                field offices.
                               previously issued.
  2     Not     D8/       2009 Inspector evaluations of gravity,      IEA    Supervisory oversight will be stressed with emphasis on citation
       Listed   DLR            negligence, and the type of                   documentation. Supervisors will be held accountable for review
                               enforcement action were not                   of inspector work products as is required in the Coal Mine Safety
                               always consistent with the                    and Health Supervisor's Handbook. This review will include
                               requirements of the Mine Act, 30              determinations of negligence and gravity. Where deficiencies are
                               CFR, MSHA policy, Commission                  identified, the Supervisor will return the work product to the
                               Decisions, and the conditions                 Inspector for correction. During AR Staff meetings, Supervisors
                               documented in the citations and               will conduct training on proper procedures of determining S&S
                               inspection notes.                             designation. Specialist will be required to attend the training.
                                                                             Rates will be discussed. In addition, the District Manager is
                                                                             reviewing all determinations by Conference and Litigation
                                                                             Officers to support enforcement actions. This is an ongoing
                                                                             process and is continuing. The conference officer has not held
                                                                             conferences of any citations or orders for approximately 16
                                                                             months so how did his actions pre-condition the inspector's
                                                                             actions. While his previous actions may have influenced
                                                                             inspector decisions, the Field Office Supervisor is the critical
                                                                             element in determining the proper enforcement levels for their
                                                                             assigned mines. A memorandum/handout, which includes he
                                                                             deficiency, requirement, and corrective measures, will be
                                                                             prepared and discussed during the staff meeting.

                                                                             The Assistant District Manager Enforcement will require the field
                                                                             office supervisors provide a monthly report, for the next six
                                                                             months, listing the actions taken regarding a lack of stronger
                                                                             enforcement when field notes indicate otherwise. This will
                                                                             include a list of management tools they implemented to resolve
                                                                             this issue.




                                                                                                             MSHA Faces Challenges
                                                                      21                                  Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                Type*                           Corrective Action
       No.
             Review
3      Not     D8/       2009 There were no unwarrantable            IEA    The Assistant District Manager Enforcement (ADME) will ensure
      Listed   DLR            citations or orders issued during             that supervisory oversight will be stressed with emphasis on
                              the two quarters reviewed.                    citation documentation during the next staff meeting and will
                              Inspector notes clearly                       ensure that supervisors will be accountable for review of
                              documented 17 citations.                      inspector work products as required in the Coal Mine Safety and
                                                                            Health Supervisor's Handbook. This review will include
                                                                            determinations of negligence and gravity. Where deficiencies
                                                                            are identified, the supervisor will return the work product to the
                                                                            Inspector for correction. During AR Staff meetings, supervisors
                                                                            will conduct training on proper procedures of determining S&S
                                                                            and negligence designations. Specialist will be required to attend
                                                                            the training. A written report of these AR staff meeting
                                                                            discussions will be provided to the ADME after each staff
                                                                            meeting for the next six months. In addition, the District
                                                                            Manager is reviewing all determinations by Conference and
                                                                            Litigation Officers to support enforcement actions. The
                                                                            conference officer has not held conferences of any citations or
                                                                            orders for approximately 16 months so how did his actions pre-
                                                                            condition the inspector's actions. While previous actions may
                                                                            have influenced inspector decisions, the Field Office Supervisor is
                                                                            the critical element in determining the proper enforcement
                                                                            levels for their field office. A memorandum/handout, which
                                                                            includes the deficiency, requirement, and corrective measures,
                                                                            will be prepared and discussed during the aforementioned staff
                                                                            meeting.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken regarding a lack of
                                                                            stronger enforcement actions when field notes indicate
                                                                            otherwise and list what management tools they have
                                                                            implemented to outcome this issue.
4      Not     D8/       2009 The Inspection Tracking System         ID     The Assistant District Manager Enforcement will ensure that the
      Listed   DLR            (ITS) documentation nor the hard              inspectorate will be retrained on the procedures for tracking the
                              copy notes gave any indication that           status of wet locations. The RDDR will be demonstrated and the
                              previous wet rock dust samples                requirements for including the Wet Rock Dust Tracking Form
                              were being tracked and                        2000-210 in the inspection documentation will be iterated.
                              reevaluated. The inspection-
                              tracking maps did not indicate                This training was provided to our field office supervisors at the
                              where rock dust surveys were                  last schedule meeting on how to determine if samples need to
                              taken.                                        be re-taken. Our supervisors are the key element for ensuring
                                                                            that the areas that have been previously determined to be too
                                                                            wet to sample are followed up on during the next inspection and
                                                                            that the inspector is responsible for including the necessary
                                                                            documentation in the file that the area in question has been
                                                                            sampled or the area is still too wet to sample. Supervisors and
                                                                            inspectors will be accountable for the completeness and
                                                                            thoroughness of inspection work.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken regarding not
                                                                            including the WET Rock Dust Tracking Form 2000-210. This will
                                                                            include a list of management tools they implemented to resolve
                                                                            this issue.




                                                                                                          MSHA Faces Challenges
                                                                     22                                Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                 Type*                           Corrective Action
       No.
             Review
5      Not     D8/       2009 Seven citations were issued citing     IEA    The Assistant District Manager Enforcement will stress
      Listed   DLR            the incorrect standard of 30 CFR.             supervisory oversight in the next supervisor staff meeting. Our
                              Inspectors cited personnel doors              supervisors are the key element for ensuring that the inspector's
                              were not closed under 75.333 (h).             enforcement actions are cited under the correct standards and
                              The correct section is 75.333 (c)             that the inspectors are accountable for their inactions.
                              (3).                                          Supervisors will be responsible for the review of inspector work
                                                                            products as required in the Coal Mine Safety and Health
                                                                            Supervisor's Handbook. Supervisors and inspectors will be
                                                                            accountable for the completeness and thoroughness of
                                                                            inspection work.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months. The supervisor will list actions they have taken
                                                                            regarding lack of stronger enforcement when the inspector's
                                                                            field notes indicate otherwise. This will include a list of
                                                                            management tools they implemented to resolve this issue.
6      Not     D8/       2009 The extent of the inspectors daily     ID     The Assistant District Manager Enforcement will ensure that a
      Listed   DLR            travels (start and end point)                 review of the General Coal Mine Inspection Procedures and
                              documentation on the mine                     Inspection Tracking System Handbook will be required of all
                              tracking map was not adequate to              Supervisors. This subject will be covered during field office staff
                              clearly determine the extent of the           meetings with the inspectorate. Supervisors will be accountable
                              inspectors travel.                            for review of inspector work products as required in the Coal
                                                                            Mine Safety and Health Supervisor's Handbook. Our supervisors
                                                                            are the key element for ensuring that the inspector has
                                                                            inspected that portion of a mine by noting their starting and
                                                                            ending points of travel while conducting the inspection. When
                                                                            the inspector documents that the mine has been inspected in its
                                                                            entirety it includes the map with those notations. Supervisors
                                                                            and inspectors will be accountable for the completeness and
                                                                            thoroughness of inspection work. A memorandum/handout,
                                                                            discussing the deficiency, requirement, and corrective measures,
                                                                            will be prepared and reviewed during the staff meeting. The
                                                                            Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken regarding lack of
                                                                            stronger enforcement when the inspector's field notes indicate
                                                                            otherwise. This will include a list of management tools they
                                                                            implemented to resolve this issue.
7      Not     D8/       2009 ITS documentation listed dates for     ID     A review of the pertinent parts of the General Coal Mine
      Listed   DLR            equipment that had been                       Inspection Procedures and Inspection Tracking System Handbook
                              inspected and the inspectors hand             will be provided to the inspectorate and to the supervisor's.
                              notes did not. Other equipment                Supervisors will be accountable for review of inspector work
                              was listed more than once on ITS              products as required in the Coal Mine Safety and Health
                              and inspected several times; one              Supervisor's Handbook. Supervisors and inspectors will be
                              piece of equipment was inspected              accountable for the completeness and thoroughness of
                              four times. ITS did not always                inspection work.
                              match the inspector notes,
                              locations, equipment, returns,
                              intakes, travel ways etc.




                                                                                                          MSHA Faces Challenges
                                                                     23                                Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                 Type*                           Corrective Action
       No.
             Review
8      Not     D8/       2009 Inspector documentation for            ID     The Assistant District Manager will ensure that a review of the
      Listed   DLR            citations was not complete and did            documentation that is required for each violation will be
                              not give details, measurements, or            conducted by the field office supervisor and that the supervisors
                              conditions to support the findings.           and inspectors are accountable for ensuring that the required
                              The citation evaluation questions             information is included in the inspector's field notes. In addition,
                              were not completed.                           MSHA Form 7000-lOK will be provided to each inspector to keep
                                                                            in his or her inspection notes binder.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken with inspectors when
                                                                            they do not properly document the reasons for enforcement
                                                                            action determinations. This will include a list of management
                                                                            tools they have implemented to resolve this issue.

9      Not     D8/       2009 There was no hard copy                 ID     The Assistant District Manager Enforcement will ensure that
      Listed   DLR            documentation informing the                   instruction will be provided to the inspectorate that miner's and
                              operator or miners of the type of             operator's rights are always required to be documented even if a
                              inspection to be conducted,                   miner's representative in not designated. This includes the right
                              procedures for requesting a safety            to conference and the right to travel with the inspector during
                              and health conference or the                  inspection activities. Supervisors and inspectors will be
                              opportunity to exercise their                 accountable for the completeness and thoroughness of
                              miner's rights.                               inspection work.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken with inspectors
                                                                            regarding not documenting that they informed the operator or
                                                                            miners of the type of inspection to be conducted, procedures for
                                                                            requesting a safety and health conference or the opportunity to
                                                                            exercise their miner's rights. This will include a list of
                                                                            management tools they have implemented to resolve this issue.
10     Not     D8/       2009 A General Information Cover Sheet      ID     The Assistant District Manager Enforcement will ensure that
      Listed   DLR            was not provided with the                     supervisory oversight will be stressed and the pertinent sections
                              inspection.                                   of the General Coal Mine Inspection Procedures Handbook will
                                                                            be covered with the inspectorate. Supervisors and inspectors will
                                                                            be accountable for the completeness and thoroughness of
                                                                            inspection work.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken with inspectors
                                                                            regarding the inspector not completing a cover sheet for each
                                                                            inspection or investigation. This will include a list of management
                                                                            tools they have implemented to resolve this issue.


11     Not     D8/       2009 The inspector did not document         ID     Supervisors will be required to re-distribute Procedure
      Listed   DLR            samples collected at seal locations           Instruction No. 108-V-8 to the inspectorate and review the
                              as required In Procedure                      contents during staff meetings. Supervisors and inspectors will
                              Instruction Letter No. I08-V-8                be accountable for the completeness and thoroughness of
                              effective date 12/19/08. There                inspection work. A memorandum/handout, discussing the
                              were no inspector notes that                  deficiency, requirement, and corrective measures, will be
                              documented the quality of the                 reviewed during the staff meeting.
                              atmosphere behind seals.
                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken with inspectors
                                                                            regarding the inspector not completing a cover sheet for each
                                                                            inspection or investigation. This will include a list of management
                                                                            tools they have implemented to resolve this issue.


                                                                                                           MSHA Faces Challenges
                                                                     24                                 Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                 Type*                            Corrective Action
       No.
             Review
12     Not     D8/       2009 Termination due dates: excessive       IEA    Supervisors will review with the inspectorate the provision under
      Listed   DLR            time given to abate citations.                104 (a) of the MINE ACT concerning the proper determination for
                                                                            setting abatement times and extension times on citations.
                                                                            Supervisors will be accountable for review of inspector work
                                                                            products as required in the Coal Mine Safety and Health
                                                                            Supervisor's Handbook. Supervisors and inspectors will be
                                                                            accountable for the completeness and thoroughness of
                                                                            inspection work.

                                                                            The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken regarding excessive
                                                                            termination times. This will include a list of management tools
                                                                            they have implemented to resolve this issue

13     Not     D8/       2009 It appeared that health specialists    IIP    Supervisory oversight will be stressed to insure that time use is
      Listed   DLR            do not contribute with the                    efficient FARs and AAs will be used to identify potential time
                              inspection of the mine. Time                  management deficiencies. Supervisors will be accountable for
                              sheets reviewed, indicated that the           review of inspector work products as required in the Coal Mine
                              specialist worked extended hours              Safety and Health Supervisor's Handbook. Where deficiencies are
                              each day with no E01 work                     identified, the Supervisor will return the work product to the
                              documented. On one occasion, the              Inspector for correction. The Health Supervisor and Health
                              inspector conducted a respirable              Specialists will be accountable for the completeness and
                              dust survey on a Part 90 miner.               thoroughness of inspection work.

                                                                            The Assistant District Manager Technical will develop, within 60
                                                                            days after this memorandum is approved, guidance through a
                                                                            memorandum signed by the District Manager, to the Health
                                                                            Supervisor and Health Specialists that spells out the required
                                                                            inspection activities for the Health Specialists. This guidance will
                                                                            become a part of the Health Specialists position description. The
                                                                            memorandum will require the Health Specialist perform
                                                                            specified inspection activities to assist in any E0l inspection
                                                                            activities at any mine.

14     Not     D8/       2009 The number of off shifts and          IWS Procedure Instruction Letter No.108-V-06 will be re-distributed
      Listed   DLR            weekends were minimal on the 3rd          to the inspectorate and will be reviewed during staff meetings. A
                              quarter of FY 09. There were no           memorandum/handout, which includes the deficiency,
                              owl shifts worked and only one            requirement, and corrective measures, will be prepared and
                              afternoon shift worked. In the 1st        discussed during the staff meeting.
                              quarter of FY 2009, no owl shifts
                              and only 2 afternoon shifts.                  The Assistant District Manager Enforcement will require the field
                                                                            office supervisors provide a monthly report, for the next six
                                                                            months, listing the actions they have taken with inspectors
                                                                            regarding off shifts and weekend work. This will include a list of
                                                                            management tools they have implemented to resolve this issue




                                                                                                           MSHA Faces Challenges
                                                                     25                                 Report No. 05-12-002-06-001
                                                                     U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                 Type*                          Corrective Action
       No.
             Review
15     Not     D8/       2009 There was no Rock Dust Data             ID     The inspectorate will be retrained on the procedures for tracking
      Listed   DLR            Retrieval Report included with the             the status of wet locations. The RDDR will be demonstrated and
                              inspection report.                             the requirements for including the Wet Rock Dust Tracking Form
                                                                             2000-210 in the inspection documentation will be iterated. Both
                                                                             our supervisors and inspectors will be held accountable for the
                                                                             completeness and thoroughness of inspection work.

                                                                             The Assistant District Manager Enforcement will require the field
                                                                             office supervisors provide a monthly report, for the next six
                                                                             months, listing the actions they have taken with inspectors
                                                                             regarding the inspector not including the Rock Dust Data
                                                                             Retrieval Report in the inspection documentation This will
                                                                             include a list of management tools they have implemented to
                                                                             resolve this issue.

16     Not     D8/       2009 There are occasions were the           IWS Supervisory oversight will be stressed to ensure that time use is
      Listed   DLR            inspectors time sheet does not              efficient. FARs and AAs will be used to identify potential time
                              match the work completed in the             management deficiencies. Supervisors will be accountable for
                              inspector notes. Example: 3 hours           review of inspector work products as required in the Coal Mine
                              co/order writing with only one              Safety and Health Supervisor's Handbook. Supervisors and
                              citation terminated.                        inspectors will be accountable for the completeness and
                                                                          thoroughness of inspection work.
17 CMS&H D11 /           2009 All required documentation of the       ID The importance of accurate and complete notes and the transfer
   Memo    DLR                E01 inspection was not present in           of this information to the ITS system will be reviewed with
   No. 11-                    the final report file. Reports were         enforcement personnel. This review will be presented to all
   09-044                     not documented in accordance                enforcement personnel under the direction of the ADM/SA/FO
    (ORM                      with the requirements contained in          supervisors, along with management’s expectations. Supervisors
     4-3)                     the General Coal Mine Inspection            will utilize a checklist as a means to monitor proper
                              & Inspection Tracking System (ITS).         documentation. A memorandum of instruction, reiterating the
                                                                          districts requirements for weekend/off shift work will be issued.
                                                                          A spreadsheet will be utilized by the surface inspectors to keep
                                                                          track of the shifts worked.
18 CMS&H D11 /           2009 The UMF Mine File was reviewed          IIP ADM/FO supervisors will review the requirements for the UMF
   Memo    DLR                and a deficiency was noted.                 with all enforcement personnel. This review will be presented to
   No. 11-                                                                all enforcement personnel under the direction of the ADM/SMO
   09-044                                                                 supervisors, along with management's expectations. The field
    (ORM                                                                  office mine safety assistants will review the UMF to ensure that
     4-3)                                                                 the required forms are in place. Supervisors will utilize the
                                                                          checklist to verify the required reviews and signatures are
                                                                          present.
19 CMS&H D11 /           2009 Inspection time indicated a wide       IWS ADM will review with supervisors. This review will be presented
   Memo    DLR                variation in total time required for        to all enforcement personnel under the direction of the
   No. 11-                    each inspection. Additionally,              ADM/SA/FO supervisors, along with management's expectations.
   09-044                     during both inspections errors in
    (ORM                      time entering and/ or coding was
     4-3)                     detected.
20 CMS&H D11 /           2009 Several issues associated with note     ID     The importance of accurate and complete notes and the transfer
   Memo    DLR                taking were found.                             of this information to the ITS system will be reviewed with
   No. 11-                                                                   enforcement personnel. This review will be presented to all
   09-044                                                                    enforcement personnel under the direction of the ADM/SA/FO
    (ORM                                                                     supervisors, along with management’s expectations. Supervisors
     4-3)                                                                    will utilize a checklist as a means to monitor proper
                                                                             documentation. Also, a memorandum of instruction, reiterating
                                                                             the districts requirements for weekend/off shift work will be
                                                                             issued. A spreadsheet will be utilized by the surface inspectors
                                                                             to keep track of the shifts worked.
21 CMS&H D11 /           2009 Event Sheet Form 2000-22. Event         ID     The enforcement staff will be reinstructed on the importance of
   Memo    DLR                sheet was not properly filled out.             properly documenting inspection activities on Form 2000-22.
   No. 11-                                                                   This review will be presented to all enforcement personnel under
   09-044                                                                    the direction of the ADM/SA/FO supervisors, along with
    (ORM                                                                     management's expectations.


                                                                                                           MSHA Faces Challenges
                                                                      26                                Report No. 05-12-002-06-001
                                                                     U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                 Type*                             Corrective Action
       No.
             Review
       4-3)


22 CMS&H D11 /           2009 The number of respirable dust           SS     The enforcement staff will be reinstructed on the importance of
   Memo HQR                   samples taken was not recorded                 properly documenting inspection activities on Form 2000-22.
   No. 11-                    accurately on both events. Event
    09-41                     4491148 denotes zero samples;
    (ORM                      nine were taken, event 4296716
     4-3)                     denotes one sample; eight were
                              taken. The number of noise
                              samples taken on event 4491148 is
                              denoted as zero; seven were taken.
23 CMS&H       D11 /     2009 The Alcohol, Tobacco, and Firearms      ID     The supervisory staff will make this an area of added emphasis
   Memo        HQR            (ATF) box is not marked in the Area            during AA/FAR reviews.
    N. 11-                    of Inspection (block 12h); a
    09-41                     completed ATF form was in the
    (ORM                      inspection report.
     4-3)
24 CMS&H       D11 /     2009 The event sheet for 103(i) Event        ID     This review will be presented to all enforcement personnel under
   Memo        HQR            No. 4493111 did not have the                   the direction of the ADM/SA/FO supervisors, along with
   No. 11-                    calendar filled out.                           management's expectations.
    09-41
    (ORM
     4-3)
25 CMS&H       D11 /     2009 The field office does not have a        SS     Inspectors will be required to clearly note the location of each
   Memo        HQR            system in place to adequately track            rock dust survey and non-survey (example-due to wet
   No. 11-                    rock dust surveys to ensure that all           conditions) on the tracking map. The return inspection to re-
    09-41                     active areas of the mine have been             evaluate the non-survey will also be noted on the map.
    (ORM                      surveyed in accordance with the
     4-3)                     General Inspection Procedures.
26 CMS&H       D11 /     2009 The hard copy notes for the first       ID     This information will be part of the inspection turnover from one
   Memo        HQR            day of E01 inspection events                   quarter to the next. The previous quarter's inspectors will review
   No. 11-                    4491148 and 4296776 do not                     with the on-coming inspector(s) and transfer that information to
    09-41                     denote that the Coal Mine                      the new tracking map.
    (ORM                      Inspector (CMI) arrived in advance
     4-3)                     of the shift start time.                       The FO supervisors will conduct a monthly review of the tracking
27 CMS&H       D11 /     2009 On first the day of the inspection,     IIP    map with the resident inspector(s) for:
   Memo        HQR            the CMI's supervisor was not                   a. Rock Dust Surveys
   No. 11-                    notified that all inspection                   b. Inspection Completion
    09-41                     activities were limited to checking            c. Any other areas of concern
    (ORM                      records on the surface. Note: First
     4-3)                     day at the mine was on the owl                 Training will be given to all enforcement personnel
                              shift and no miners worked
                              underground. Event 4296776                     The Staff Assistant will prepare a memorandum of instruction to
28 CMS&H D11 /           2009 "NlDO" (No Imminent Dangers             ID     all enforcement supervisors outlining the corrective action.
   Memo HQR                   Observed) was not always
   No. 11-                    documented in the hard copy                    The importance of accurate and complete notes and the transfer
    09-41                     notes when inspection activities               of this information to the ITS system will be reviewed with
    (ORM                      occurred on the section.                       enforcement personnel
     4-3)
29 CMS&H D11 /           2009 The shift type (production,             ID     This review will be presented to all enforcement personnel under
   Memo HQR                   maintenance, or idle) was not                  the direction of the ADM/SA/FO supervisors, along with
   No. 11-                    identified on the daily cover sheet            management's expectations.
    09-41                     for both events 4491148 and
    (ORM                      4296776.                                       Supervisor will utilize a checklist for the review of all E-01's. This
     4-3)                                                                    checklist will cover those areas of documentation.
30 CMS&H D11 /           2009 The arrival time at the mine was        ID
   Memo HQR                   not always documented on both
   No. 11-                    events 4491148 and 4296776.
    09-41
    (ORM


                                                                                                             MSHA Faces Challenges
                                                                      27                                  Report No. 05-12-002-06-001
                                                                     U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                 Type*                     Corrective Action
       No.
             Review
       4-3)



31 CMS&H D11 /           2009 General documentation errors in         ID
   Memo HQR                   both ITS and hard copy notes such
   No. 11-                    as: incorrect dates, information in
    09-41                     ITS not included in notes,
    (ORM                      equipment list did not always
     4-3)                     match that in the hard copy notes,
                              general inspection headings from
                              the handbook not found in notes,
                              equipment in notes not described
                              by company identification or serial
                              number, and required inspection
                              items were missing from MMU log
                              (first aid equipment).
32 CMS&H D11 /           2009 The primary and alternate escape        ID
   Memo HQR                   ways were not documented in the
   No. 11-                    ITS and identified PE (Primary
    09-41                     escape way) and AE (Alternate
    (ORM                      Escape way) as required. In
     4-3)                     addition, the beginning and ending
                              points as they correlate to a
                              permanent reference on the map
                              were not documented in the hard
                              copy notes and/or ITS.
33 CMS&H       D11 /     2009 Belt inspections were not               ID
   Memo        HQR            adequately documented in the
   No. 11-                    hard copy notes with beginning
    09-41                     and ending points for the area
    (ORM                      inspected.
     4-3)
34 CMS&H       D11 /     2009 The location of the last open           ID
   Memo        HQR            crosscut was not always
   No. 11-                    documented in the hard copy
    09-41                     notes for each visit to the section.
    (ORM
     4-3)
35 CMS&H       D11 /     2009 The MMU number, manufacturer,           ID
   Memo        HQR            and model of SCSRs inspected
   No. 11-                    were not documented in the hard
    09-41                     copy notes, although serial
    (ORM                      numbers were documented.
     4-3)
36 CMS&H       D11 /     2009 No air measurements were                ID
   Memo        HQR            documented in the hard copy
   No. 11-                    notes or ITS for the #2 and #3
    09-41                     intakes at the portal of the mine.
    (ORM
     4-3)
37 CMS&H       D11 /     2009 Event 4296776: no documentation         ID
   Memo        HQR            that the CMI traveled with the on-
   No. 11-                    shift examiner.
    09-41
    (ORM
     4-3)




                                                                                                     MSHA Faces Challenges
                                                                      28                          Report No. 05-12-002-06-001
                                                                     U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                  Type*                           Corrective Action
       No.
             Review
38 CMS&H D11 /           2009 Event 4491148: no documentation         ID
   Memo HQR                   that the CMI traveled with the pre-
   No. 11-                    shift and weekly examiner. The
    09-41                     name of the on-shift examiner was
    (ORM                      not documented.
     4-3)
39 CMS&H D11 /           2009 Only one air quantity                   SS     For the 30-shift average, the Health Supervisor has instructed all
   Memo HQR                   measurement was taken for the                  Health Specialists in the proper method to determine the
   No. 11-                    continuous miner and roof bolter               average. This is already implemented, and the Health Supervisor
    09-41                     during each of the a.m. and p.m.               is reviewing all inspections to ensure compliance.
    (ORM                      surveys.
     4-3)                                                                    For the air quality measurement, the Health Supervisor held
40 CMS&H D11 /           2009 The 2000-86 form was not                ID     discussions with the Chief. Division of Health, who indicated that
   Memo HQR                   complete in that the method used               the method used by the district was appropriate. It is
   No. 11-                    to determine the 30shift average               recommended that clarification from headquarters be obtained.
    09-41                     was not described. The form
    (ORM                      should include the data range for              In the event of a hardware malfunction associated with an
     4-3)                     data utilized, the total production            inspector's computer, the program analyst will also determine if
                              during the 30 shifts, the normal               the inspector's time and activity forms are affected, and will
                              shift length, the conversion to an             resolve as necessary.
                              8-hour equivalent, and the percent
                              of the 3O-shift average obtained               The ADM/FO supervisors will review the agency's expectations
                              during the sampling shift. There               for proper note taking and the evaluation of citations with
                              was no estimate of the total                   respect to elevated enforcement.
                              amount of material in tons mined
                              based on the number of feet                    ADM will emphasize proper evaluation of citations as part of the
                              advanced, the number of passes,                E01 2nd level review process.
                              or the number of cars loaded.
41 CMS&H       D11 /     2009 One CMI did not complete a Time        IWS The district will conduct a monthly spot inspection and a
   Memo        HQR            and Activity form for the week of          quarterly spot electrical inspection at the smaller, underground
   No. 11-                    April 13 - 17, 2009 during the             mines. This will be in addition to the regular E-O1, and re-
    09-41                     4491148 event.                             emphasize to the operator the importance the district places on
    (ORM                                                                 compliance.
     4-3)
42 CMS&H       D11 /     2009 Citation No. 7697564- External          IEA
   Memo        HQR            ground wire on shuttle car cathead             This review will be presented to all enforcement personnel under
   No. 11-                    was disconnected. The citation was             the direction of the ADM/SA/FO supervisors, along with
    09-41                     marked as no lost workdays                     management's expectations
    (ORM                      (should be at least lost workdays or
     4-3)                     restricted duty).
43 CMS&H       D11 /     2009 Citation No. 7695199- Oil               IEA
   Memo        HQR            accumulations in the operator's
   No. 11-                    deck of a shuttle car. cited as
    09-41                     75.1725(a) (should be 75.400)
    (ORM
     4-3)
44 CMS&H       D11 /     2009 Citation No. 7698302- Hole in           IEA
   Memo        HQR            return stopping that separates belt
   No. 11-                    from the return was cited as
    09-41                     75.333(b)(2) (should be 75.333(h)
    (ORM
     4-3)




                                                                                                           MSHA Faces Challenges
                                                                      29                                Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                 Type*                      Corrective Action
       No.
             Review
45 CMS&H D11 /           2009 Citation No. 7697500,written for       IEA
   Memo HQR                   low air over the roof-bolting
   No. 11-                    machine, is marked as unlikely,
    09-41                     non-S&S, moderate negligence,
    (ORM                      and a safety-only violation The
     4-3)                     citation should be considered for
                              possible Health and Safety
                              violation and
                              elevated negligence. The Corinth
                              Mine MMU (0.9 mg/m3) and roof
                              bolters (1.3 and 1.7) are on
                              reduced respirable dust standards
                              because of quartz. (Note: District
                              states no over exposures in last 5
                              years)
46 CMS&H D11 /           2009 Is on a reduced dust standard (1.3     SS
   Memo HQR                   and 1.7) because of quartz.
   No. 11-
    09-41
    (ORM
     4-3)
47 CMS&H D11 /           2009 Citation No. 7697495, written on       IEA
   Memo HQR                   loose, broken, unsupported roof
   No. 11-                    above the travel way on the belt
    09-41                     was marked as moderate
    (ORM                      negligence. The inspector's notes
     4-3)                     indicate this was an obvious
                              condition. The belt is examined
                              every production shift. This
                              violation should be considered for
                              elevated negligence.
48 CMS&H D11 /           2009 Citation No. 7697499 was written       IEA
   Memo HQR                   on belt examinations; several
   No. 11-                    violations were cited but marked
    09-41                     as only moderate negligence. This
    (ORM                      violation should be considered for
     4-3)                     elevated negligence.
49 CMS&H D11 /           2009 Two 103(i) spot inspections were       IEA
   Memo HQR                   reviewed. Citation No. 7696091,
   No. 11-                    issued on 5/12/2009 was rated as
    09-41                     moderate negligence with more
    (ORM                      than one person affected. The
     4-3)                     inspection notes indicated that the
                              management officials knew or
                              should have known that the
                              condition existed. This violation
                              should be considered for elevated
                              negligence. Also abatement due
                              date was set for 5/19/2009: a total
                              of 7 days to install a lifeline.




                                                                                                     MSHA Faces Challenges
                                                                     30                           Report No. 05-12-002-06-001
                                                                       U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                   Type*                          Corrective Action
       No.
             Review
50 CMS&H D11 /           2009 Two l03(i) spot inspections were          ID
   Memo HQR                   reviewed. The inspector notes
   No. 11-                    stated that a violation was
    09-41                     extended for a spill in the slope
    (ORM                      because the operator requested an
     4-3)                     extension. The inspector does not
                              state he went to the area and
                              inspected it to determine if an
                              extension should be granted, but
                              the inspector extended the
                              abatement time by 6 days until
                              5/18/2009. This occurred during an
                              accompanied activity and the
                              supervisor did note in his review
                              the CMI did not note all areas
                              traveled in the hard copy notes.
51 CMS&H D11 /           2009 Two 103(i) spot inspections were          ID
   Memo HQR                   reviewed. A citation was
   No. 11-                    terminated on a piece of
    09-41                     equipment for the service brakes.
    (ORM                      The piece of equipment was not
     4-3)                     clearly identified and the notes did
                              not indicate whether it was
                              inspected prior to termination.
52 CMS&H D11 /           2009 A misinterpretation of MSHA/SOL           IIP    To be determined (see "Potential systemic nature of this
   Memo HQR                   Alternative Case Resolution                      deficiencies")
   No. 11-                    Procedures, dated 10/21/2008,
    09-41                     was discovered. The District's
    (ORM                      interpretation of the
     4-3)                     Memorandum of Understanding
                              (MOU) is that the District was not
                              required to conduct an Enhanced
                              Safety and Health Conference
                              unless the operator had requested
                              a conference under 30 CFR100.6,
                              prior to filing a Notice of Contest of
                              Civil Penalty.
53 CMS&H D11 /           2009 Based on a review of the mine     MMP The district's standard operating procedures (SOP) for the review
   Memo HQR                   map, it cannot be determined how      of ventilation plans/maps will be updated to reflect that a side-
   No. 11-                    the worked-out area is ventilated     by-side comparison of the submitted map and the previously
    09-41                     or evaluated.                         approved map will be made. The ventilation supervisor will
    (ORM                                                            observe the side-by-side review with the specialist.
     4-3)
54 CMS&H D11 /           2009 The ventilation plan does not      MMP Training on the changes to the SOP will be given to specialists.
   Memo HQR                   reflect that Designated Area 501-0     Field Office inspectors will be instructed to contact, either
   No. 11-                    has been in "sampling not              through the FO supervisor, or directly to a ventilation specialist
    09-41                     required" status since 6/23/2003.      or the ventilation supervisor, any ventilation concerns they may
    (ORM                                                             have or encounter during the course of their inspection. A
     4-3)                                                            memorandum of instruction will be issued by the District
                                                                     Manager.
55 CMS&H D11 /           2009 Second-level reviewers do not have SR A tracking system has been developed and placed on the district
   Memo HQR                   a readily available means to           T drive so that both the DM and ADM can track FARS/AA's.
   No. 11-                    determine whether all required
    09-41                     FARs and AAs have been
    (ORM                      completed other than manually
     4-3)                     counting each one.
56 CMS&H D11 /           2009 Most FARs were conducted on E02     SR The ADM/DM will select an appropriate number of E-01's for
   Memo HQR                   events.                                review with the respective FO supervisors. The initial reviews will
   No. 11-                                                           focus on the smaller, underground mines.
    09-41


                                                                                                             MSHA Faces Challenges
                                                                        31                                Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                 Type*                            Corrective Action
       No.
             Review
      (ORM
       4-3)
57 CMS&H D11 /           2009 The designated composite mine          T       It was determined that the issue arose due to a
   Memo HQR                   rescue team did not practice                  misunderstanding in the effective date of the above mentioned
   No. 11-                    underground in the mine as a                  regulation. Discussions with representatives of the State of
    09-41                     team. In addition, according to the           Alabama indicate they have a correct understanding of the
    (ORM                      Annual Certification of Mine                  regulations as they now apply. The form used to document was
     4-3)                     Rescue Team Qualifications, one of            also reviewed, and the State has adopted measures that will list
                              the practices was listed as being             the required information in a clearer manner.
                              held on the surface. According to
                              the Annual Certification of Mine
                              Rescue Team Qualifications, only
                              two rescue team members went to
                              the mine.
58 CMS&H D11 /           2009 The Annual Certification of Mine       T      It was determined that the issue arose due to a
   Memo HQR                   Rescue Team Qualifications does               misunderstanding in the effective date of the above mentioned
   No. 11-                    not indicate that all team members            regulation. Discussions with representatives of the State of
    09-41                     participated in two mine rescue               Alabama indicate they have a correct understanding of the
    (ORM                      contests.                                     regulations as they now apply. The form used to document was
     4-3)                                                                   also reviewed, and the State has adopted measures that will list
                                                                            the required information in a clearer manner.
59 CMS&H D11 /           2009 There is no MSHA form 2000-223in       ID     ADM/FO supervisors will review the requirements for the UMF
   Memo HQR                   the UMF.CMS&H Memo No. HQ-                    with all enforcement personnel.
   No. 11-                    08.01O-A (SEC-103) requires the
    09-41                     use of MSHA form 2()()()"223 for
    (ORM                      review of the ERP during
     4-3)                     E01inspections. 'This form is to be
                              filed in the UMF and E01
                              inspection report. Two E01events
                              conducted during the time period
                              January thru June 2009 were
                              reviewed for this requirement.
60 CMS&H       D11 /     2009 There were no copies of the 2000-      ID     The field office mine safety assistants will review the UMF to
   Memo        HQR            86 form in the UMF.                           ensure that the required forms are in place.
   No. 11-
    09-41
    (ORM
     4-3)
61 CMS&H       D11 /     2009 The currently approved SCSR            ID     Supervisors will utilize the checklist to verify the required
   Memo        HQR            storage plan is not in the UMF. The           reviews and signatures are present.
   No. 11-                    version in the book is dated July
    09-41                     16, 2001; the latest copy provided
    (ORM                      to the review team was dated July
     4-3)                     16, 2008.
62 CMS&H       D11 /     2009 No summary sheets for Field            ID     This review will be presented to all enforcement personnel under
   Memo        HQR            Modifications or Petitions for                the direction of the ADM/SA/FO supervisors, along with
   No. 11-                    Modification were found in the                management's expectations.
    09-41                     UMF.
    (ORM
     4-3)
63 CMS&H       D11 /     2009 The UMF contained multiple copies      ID     The 2000-223 review will be required quarterly along with the
   Memo        HQR            of the 7000-1 reports and a                   Roof Control and Ventilation Plan reviews (200-204).
   No. 11-                    citation for failure to notify MSHA           Enforcement personnel will be trained on this and the above
    09-41                     of an accident in a timely manner.            requirements.
    (ORM                      A 7000-1 from 8/15/'1007 was still
     4-3)                     in the UMF; such forms are to be
                              removed on a yearly basis.




                                                                                                            MSHA Faces Challenges
                                                                     32                                  Report No. 05-12-002-06-001
                                                                U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding               Type*                           Corrective Action
       No.
             Review
64 CMS&H D11 / 2009 The UMF was not signed by the                ID     The 2000-223 review will be required quarterly along with the
   Memo HQR          CMIs conducting E01 Event                          Roof Control and Ventilation Plan reviews (200-204).
   No. 11-           4491148.                                           Enforcement personnel will be trained on this and the above
    09-41                                                               requirements.
    (ORM
     4-3)
65 Not RM - DLR 2009 Inspectors may not have                    IWS A meeting was held with all Rocky Mountain field office
    Listed           conducted inspections on all                   supervisors on January 21 & 22, 2009. The importance of
                     working shifts.                                adequate off-shift/weekend inspection activities was discussed
                                                                    in detail.
66  Not RM - DLR 2009 Inspectors frequently lack                 ID The assistant district manager reviewed this matter with the field
   Listed             adequate documentation in                     office supervisors, via e-mail, on April 2009.
                      supporting gravity and negligence
                      determinations in their citation
                      field notes.
67 Not RM - DLR 2009 The field office supervisor failed to       SR     This matter has been reviewed with all field office supervisors.
   Listed             conduct the minimum number of                     The Rocky Mountain district will develop a tracking system to
                      accompanied and unaccompanied                     ensure that the required reviews are conducted and
                      reviews.                                          documented.

68  Not RM - DLR 2009 During the inspection of the               IIP    The field office supervisor held a staff meeting on May 18, 2009
   Listed             approximately 500 foot long FCT                   to discuss the requirement and importance of conducting
                      (continuous haulage and conveyor                  complete and thorough inspections. Specifically, chapter five
                      belt) unit the inspector only                     “regular inspection procedures” of the General Inspection
                      conducted an examination along                    Procedures handbook was reviewed with the field office staff.
                      one side of the equipment,                        This issue will be reviewed on all future district audits and
                      allowing the miners’ representative               discussed at future field office supervisor meetings.
                      to examine the opposite side.
69 Not NE - DLR 2009 Ground Conditions in the Pit. (No           IEA    The Assistant District Manager held a conference call with all NE
   Listed             violations of ground control issued               District Field Office Supervisors on 10/26/09. He discussed the
                      at this operation in past five years.)            findings of the audit teams, emphasized the importance of
                                                                        conducting adequate examinations of ground control hazards,
                                                                        reviewed applicable ground control standards, discussed factors
                                                                        inspectors should be looking at, and informed them that he was
                                                                        planning a series of meetings and training to enhance the
                                                                        highwall inspection process.
70     Not NE - DLR 2009 Failure to examine and test for         IIP    Supervisors were also asked to have inspectors include in their
      Listed             loose ground conditions in the pit.            inspection report photos describing the condition of the
                         (No previous history of being cited)           highwalls at the mine regardless of whether a citation is issued.

71  Not NE - DLR 2009 Housekeeping/safe access in the            IIP    The supervisors were asked to review these photos to assure
   Listed             escape route of the surge tunnel.                 that inspectors are not overlooking hazardous conditions.
                      (Obvious condition that existed for
                      extended period)
72 Not NE - DLR 2009 Failure to review all required              SR     Lastly, the supervisors were asked to send an e-mail response to
   Listed             documents/records during                          the ADM confirming that they discussed this issue with their
                      inspections.                                      inspectors listing all the inspectors that were in attendance.

73     Not NE - DLR 2009 Ground Conditions in the Pit.           IEA    During the NE district's supervisor' meeting in August 2009, a
      Listed             (Citations had never been issued               PowerPoint was presented describing highwall hazards and how
                         for violations regarding ground                they should be addressed. This PowerPoint included photos of
                         conditions at this mine)                       highwalls observed during this Accountability Review. A DVD of
                                                                        the PowerPoint was subsequently distributed to each supervisor
                                                                        and they were instructed to show it to all their inspectors and
                                                                        document that they viewed it.
74     Not NE - DLR 2009 Failure to examine and test for         IIP    On November 13, 2009, the Assistant District manager sent out
      Listed             loose ground conditions in the pit.            an email to the District's Field Office Supervisors clarifying what
                                                                        enforcement action should be taken when particular ground
                                                                        control conditions and hazards are found. Supervisors were
                                                                        asked to review this information with all of their inspectors.
                                                                        Included with the email was a PIB and guidance memo


                                                                                                       MSHA Faces Challenges
                                                                 33                                 Report No. 05-12-002-06-001
                                                                 U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding                Type*                           Corrective Action
       No.
             Review
                                                                         addressing highwall hazards.




75     Not NE - DLR 2009 Failure to maintain wall bank and        IIP    On December 14, 2009, the District Manager had a conference
      Listed             slope stability in the pit.                     call with the District's Field Office Supervisors where he
                                                                         discussed and clarified certain highwall issues.
76     Not NE - DLR 2009 Field office supervisor also             IIP    Supervisors and inspectors are continually reminded of the need
      Listed             accompanied inspector at this                   to conduct a thorough inspection and address housekeeping
                         operation and was in the pit with               hazards. This issue was discussed during the August 2009
                         the inspector on the last regular               Supervisors meeting, including a review of what criteria to
                         inspection prior to the audit.                  consider in determining whether or not a housekeeping violation
                                                                         would warrant a finding of significant and substantial.
                                                                         Supervisors were also asked to assure that inspectors are
                                                                         reviewing all required documents (i.e., training, written haz/com
                                                                         and hearing conservation programs, pressure vessel inspection
                                                                         records, ground and continuity resistance testing, workplace and
                                                                         mobile equipment exams, records of first aid training and fire
                                                                         extinguisher examinations) during mandated inspections.
77 CMS&H D8 / DLR 2010 For the two quarters reviewed, the         IEA    The DM/ADM will provide an extensive review of the criteria for
   Memo                percent of S & S violations was                   S&S. The ADM Enforcement will review at least 10 percent of
   No. 08-             significantly low. The percent was                the E01 violations issued out of the Vincennes Field Office to
   10-008              14.3% compared to 35% for the                     ensure consistency of gravity evaluations for the time period of
    (ORM               Nation.                                           October 30, 2010 through December 31, 2010. The proper
     4-3)                                                                development and evaluation of negligence will be presented and
                                                                         elaborated to the inspectorate.
78 CMS&H     D8 / DLR 2010 There was a non-systematic             IIP    The Field Office Supervisor will re-train the inspectorate in time
   Memo                    approach to inspections activities            management and efficient inspection techniques.
   No. 08-                 for the 2009 October through
   10-008                  December quarter. Working
    (ORM                   sections were visited multiple
     4-3)                  times.
79 CMS&H     D8 / DLR 2010 Specialists were not reviewing and     ID     The DM/ADM Technical will provide review to all Specialist and
   Memo                    documenting reviews in the                    Specialists Supervisors of the requirements for documenting
   No. 08-                 Uniform Mine File.                            reviews in the Uniform Mine File.
   10-008
    (ORM
     4-3)
80 CMS&H     D8 / DLR 2010 Specialists were not signing or        ID     The DM/ADM Technical will provide a review to all Specialists
   Memo                    providing a 2000-22 form, Coal                and Specialist Supervisors of the requirements for providing a
   No. 08-                 Mine Activity Data sheet.                     Coal Mine Activity Data Sheet.
   10-008
    (ORM
     4-3)
81 CMS&H     D8 / DLR 2010 There was inconsistency in             ID     The DM/ADM Enforcement will provide a review of the
   Memo                    documenting that miners' rights to            requirements to document that miners' rights were afforded.
   No. 08-                 travel were afforded.                         The ADM Enforcement will review 10 percent of the E01 field
   10-008                                                                notes for the Vincennes Field Office from October 30, 2010
    (ORM                                                                 through December 31, 2010 to ensure that required
     4-3)                                                                documentation is included.
82 CMS&H     D8 / DLR 2010 The last open crosscut location was    ID     The ADM/DM Enforcement will provide a review of the
   Memo                    not always listed in the notes.               requirements to document the location of the last open crosscut
   No. 08-                                                               on working sections. The ADM Enforcement will review 10
   10-008                                                                percent of the E01 field notes for the Vincennes Field Office from
    (ORM                                                                 October 30, 2010 through December 31, 2010 to ensure that
     4-3)                                                                required documentation is included.




                                                                                                       MSHA Faces Challenges
                                                                  34                                Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                 Type*                           Corrective Action
       No.
             Review
83 CMS&H D8 / DLR 2010 Parts of citation notes do not                IEA    The DM/ADM Enforcement will provide a review of the
   Memo                contain necessary information to                     requirements to document the necessary information to
   No. 08-             describe the condition or practice.                  describe condition or practice when citing violations.
   10-008              Some descriptions are not                            The ADM Enforcement will review 10 percent of the E01 field
    (ORM               consistent with regulation and                       notes for the Vincennes field notes for the Vincennes Field Office
     4-3)              policy.                                              from October 30, 2010 through December 31, 2010 to ensure
                                                                            that required documentation is included.
84 CMS&H D8 / DLR 2010 On 11/01/2009, No Imminent                    ID     The DM/ADM Enforcement will provide a review of the
   Memo                Dangers Observed (NIDO) was not                      requirements to document that (NIDO) is always in the inspector
   No. 08-             found in a couple of instances.                      notes.
   10-008                                                                   The ADM Enforcement will review 10 percent of the E01 field
    (ORM                                                                    notes for the Vincennes Field Office from October 30, 2010
     4-3)                                                                   through December 31, 2010 to ensure that required
                                                                            documentation is included.
85 CMS&H D8 / DLR 2010 On 11/17/2009, there were no                  SR     The DM/ADM Enforcement will provide a review of the
   Memo                supervisory review of paperwork                      requirements to check all paperwork and notes per instructions.
   No. 08-             and notes.                                           The ADM Enforcement will review 10 percent of the E01
   10-008                                                                   violations and field notes for the Vincennes Field Office from
    (ORM                                                                    October 30, 2010 through December 31, 2010 to ensure that
     4-3)                                                                   required documentation is included.
86 CMS&H D8 / DLR 2010 The arrival time at mine was not              ID     The DM/ADM Enforcement will provide a review of the
   Memo                always documented.                                   requirements to document arrival time at mines. The ADM
   No. 08-                                                                  Enforcement will review 10 percent of the E01 field notes for the
   10-008                                                                   Vincennes Field Office from October 30, 2010 through December
    (ORM                                                                    31, 2010 to ensure that required documentation is included.
     4-3)
87 CMS&H D11 / 2010 There was no documentation in                    ID     The DM/ADM will conduct an extensive training review during
   Memo    DLR         the inspector's notes that the mine                  the District's August, 2010 Supervisory Staff Meeting. The DM
   No. 11-             map was reviewed for hazards on                      and agency expectations will be thoroughly reviewed with all
   10-031              the first day of the inspection (pg.                 enforcement supervisors. The agency's requirements for
    (ORM               13, item 2). Note: Inspectors did                    inspection documentation and the transfer of this information to
     4-3)              document the review of the map                       the ITS system will be reviewed with enforcement personnel.
                       later in the inspection.                             This review will be presented to all supervisors and enforcement
                                                                            personnel.
88 CMS&H D11 /           2010 Equipment listed in notes was not      ID
   Memo    DLR                always adequately identified (no
   No. 11-                    serial number or company number)
   10-031                     and at times there was no
    (ORM                      indication of the inspector's
     4-3)                     determination of equipment
                              condition (NVO, OK, etc.)
89 CMS&H D11 /           2010 SCSR checks were not properly          ID
   Memo    DLR                documented and there was no
   No. 11-                    indication that any outby miners
   10-031                     had been polled on their
    (ORM                      knowledge of donning procedures.
     4-3)
90 CMS&H D11 /           2010 The location of the LOCC was not       ID
   Memo    DLR                properly documented at all
   No. 11-                    appropriate times.
   10-031
    (ORM
     4-3)
91 CMS&H D11 /           2010 Inspector did not fully document       ID
   Memo    DLR                the observation of the mining
   No. 11-                    cycle. Note: this occurred only one
   10-031                     time for one section.
    (ORM
     4-3)




                                                                                                          MSHA Faces Challenges
                                                                     35                                Report No. 05-12-002-06-001
                                                                     U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                 Type*                           Corrective Action
       No.
             Review
92 CMS&H D11 /           2010 Not all air measurements had an         ID
   Memo    DLR                associated air quality
   No. 11-                    (methane/oxygen) reading.
   10-031
    (ORM
     4-3)
93 CMS&H D11 /           2010 Seal sets did not have the required     ID
   Memo    DLR                air quality measurement for the
   No. 11-                    entry nearest each set of seals
   10-031                     immediately after the air passes
    (ORM                      the seal set. Note: there was
     4-3)                     sufficient documentation in the
                              notes that air quality at the seal
                              was being tested.
94 CMS&H       D11 /     2010 Inspector notes documented the          ID
   Memo         DLR           inspection of independent
   No. 11-                    contractors, but there were no
   10-031                     2000-208 forms with the notes.
    (ORM
     4-3)
95 CMS&H       D11 /     2010 Arrival time was not always             ID
   Memo         DLR           indicated on the inspector's daily
   No. 11-                    cover sheet. Note: this only
   10-031                     occurred on two occasions.
    (ORM
     4-3)
96 CMS&H       D11 /     2010 Discrepancies between the ITS and       ID
   Memo         DLR           inspector's notes, most commonly,
   No. 11-                    equipment listed in notes, but not
   10-031                     transferred to the ITS.
    (ORM
     4-3)
97 CMS&H       D11 /     2010 Termination times were not always       IEA    The DOL's Nashville Solicitors Office will send a representative to
   Memo         DLR           established according to agency                review S&S and the proper development and evaluation
   No. 11-                    requirements.                                  negligence.
   10-031
    (ORM
     4-3)
98 CMS&H       D11 /     2010 Significant and Substantial             IEA    The proper evaluation of termination time will be reviewed with
   Memo         DLR           evaluation for two citations did not           all supervisors on August 25, 2010.
   No. 11-                    appear to meet agency
   10-031                     requirements.
    (ORM
     4-3)




                                                                                                            MSHA Faces Challenges
                                                                      36                                 Report No. 05-12-002-06-001
                                                                      U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                  Type*                           Corrective Action
       No.
             Review
99     Not     RM /      2010 It appears based on previous             SR     The District management has already addressed this issue by
      Listed   DLR            inspections reviewed; the field                 splitting the office and placing another supervisor in the office
                              office supervisor was not spending              reducing the number to eight inspectors per supervisor. This was
                              a sufficient amount of time                     done in January of 2010. The addition of the second field office
                              reviewing reports. Justification on             supervisor will provide better review and oversight of inspection
                              gravity and negligence was very                 procedures and allow more time to get the required F!R’s
                              minimal, short single statements                completed.
                              (management not aware, should
                              have been reported). Four
                              citations reviewed described an
                              imminent danger in the body of
                              the citation but no order was
                              issued. Several files indicated
                              violations of the same standard
                              with continual moderate
                              negligence determinations
                              regardless of the number of times
                              issued in the last 15 months.
100    Not     RM /      2010 It appears that the level of             IIP    The district management has recognized the issues and assigned
      Listed   DLR            enforcement on previous                         another inspector to help complete the inspection of the entire
                              inspections has not been                        mine.
                              adequate. Failure of inspectors to
                              conduct a complete inspection of
                              the mine.
101    Not     RM /      2010 The field office supervisor failed to    SR     The District management has already addressed this issue by
      Listed   DLR            conduct six accompanied F!R’s in                splitting the office and placing another supervisor in the office
                              FY 2009.                                        reducing the number to eight inspectors per supervisor. This was
                                                                              done in January of 2010. The addition of the second field office
                                                                              supervisor will provide better review and oversight of inspection
                                                                              procedures and allow more time to get the required F!R’s
                                                                              completed.
102    Not     NE /      2010 It appears based on a review of          SR     The Northeast District recently provided additional training to all
      Listed   DLR            previous inspection reports that                inspectors and supervisors in the district. The training covered:
                              the field office supervisor was not             negligence, unwarrantable failure, S&S, highwall hazard
                              spending a sufficient amount of                 recognition, and other enforcement issues.
                              time reviewing reports.
                              Justification on gravity and                    A peer audit of the Wyomissing South field office will be
                              negligence was very minimal. It                 conducted during the month of August, 2010, to ensure that
                              also appears that in a couple of                improvements are being made. In addition, the findings and
                              instances the inspector did not                 corrective actions of this audit will be thoroughly discussed at
                              fully understand S&S criteria and               the next district field office supervisor meeting which is
                              did not cite the correct standard.              tentatively scheduled for August 30 through September 3, 2010.

103    Not NE / DLR 2010 It appears based on a review of               SR     District management identified this issue prior to the audit and
      Listed             FARs in 2008 and 2009 (Exhibit E)                    had taken the appropriate corrective measures. The supervisor
                         that the field office supervisor was                 had correctly completed the last three Field Activity Review
                         not fully completing the FARs; the                   forms reviewed during this audit, indicating that the corrective
                         field office supervisor was not                      action implemented was successful.
                         documenting the “Deficiencies” or
                         “Corrective !ction” during these                     In addition, all field office supervisors in metal/non-metal are
                         reviews.                                             now required to attend supervisor training every other year.
                                                                              Properly completing field activity review forms is thoroughly
                                                                              covered during this training.




                                                                                                             MSHA Faces Challenges
                                                                       37                                 Report No. 05-12-002-06-001
                                                                  U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding                 Type*                            Corrective Action
       No.
             Review
104 CMS&H D8 / DLR 2011 Items 1 through 8, as stipulated in        ID     Through training ensure that each SUPERVISOR and CMI is aware
    Memo                the General Coal Mine Inspection                  of these findings. A record of training and a list of attendees will
    No. 08-             Procedures (Page 67 of handbook)                  be reported to the District Manager.
    11-003              and Inspection Tracking System
     (ORM               handbook concerning
      11)               documentation of citations did not
                        always contain the specified
                        information. Concerns were with
                        "who knew", "how long", and
                        episodic issues with termination
                        time being too long. In addition
                        negligence could be better
                        evaluated.
105 CMS&H D8 / DLR 2011 103(1) SPOT INSPECTIONS: A §103            SS     The District Manager shall ensure through additional training
    Memo                (i) spot inspection sequence had                  that each supervisor is aware if these findings. A record of
    No. 80-             not been initiated when the total                 training and a list of attendees will be reported to the District
    11-003              liberation of methane in 24 hours                 Manager.
     (ORM               exceeded the limit specific in the
      11)               Mine Act. One set of bottle                       Instructions for the CMI and Supervisory 103(i) training will be
                        samples had been taken in January                 specified in a memorandum from the District Manager to all
                        indicating the quantity listed in                 Supervisors and Managers.
                        §103(i) of the Act had been
                        exceeded. For verification I a                    THE ADM will review with each Field Office Supervisor the
                        second set was collected in January               District's Standard Operating Procedures on 103(i) of the Mine
                        and was above the prescribed                      Act. Supervisors will provide scrutiny and prompt attention
                        quantity. The mine was not listed                 when total liberation samples indicate that a change in 103(i)
                        as requiring a 103i spot inspection               status is warranted. A monthly report will be developed that list
                        until April after a third set of bottle           the current 103(i) status and the latest total daily liberation of
                        samples were collected, which                     methane for each active and non-producing District 8
                        exceeded the prescribed quantity.                 underground mine.
106 CMS&H D8 / DLR 2011 E01 documentation was not                  ID     The District Manager shall ensure, through additional training,
    Memo                complete. Some notes did not have                 that each COAL MINE INSPECTOR is aware of these findings. A
    No. 08-             a daily cover sheet. On one day,                  record of training and a list of attendees will be reported to the
    11-003              12/27/10, notes were missing. A                   District Manager. The District Manager shall ensure, through
     (ORM               MSHA Form 2000-86 was missing                     additional training, that each SUPERVISOR is aware of these
      11)               for 2/23/2011. Some bottle sample                 findings. A record of training and a list of attendees will be
                        results were in the UMF but not in                reported to the District Manager. Instructions for CMI and
                        the E01 file. In some instances,                  Supervisory Evaluation E01 Documentation training will be
                        required information was not                      specified in a memorandum from the District Manager to all
                        documented. There was a failure                   Supervisors and Managers.
                        to document a UMF review.
                        Miner's representative was not                    The ADM's second level reviews shall include a review of the
                        listed and appeared that miners                   issues identified. The ADMs will follow up with Supervisor to
                        were not always afforded                          ensure that proper documentation is accomplished.
                        accompaniment rights, although
                        some ARs were good at this.
                        Production, idle days, and
                        designated shifts ware not always
                        documented on the daily cover
                        sheet. Beginning and ending dates
                        were not always noted on the
                        General Information Cover sheet
                        (two times). The inspection notes
                        did not always match the
                        Inspection Tracking System
                        documentation {less than 5 times).
                        In addition, the notes and the
                        tracking map did not match in one
                        instance. (After conferring with the
                        inspector, this was determined to



                                                                                                         MSHA Faces Challenges
                                                                   38                                 Report No. 05-12-002-06-001
                                                                   U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                Finding                Type*                           Corrective Action
       No.
             Review
                               be a documentation issue.)
107 CMS&H D8 / DLR 2011 Inspector time was not always              IWS Through training ensure that each SUPERVISOR is aware of these
    Memo                properly attributed to the E01                 findings. A record of training and a list of attendees will be
    No. 08-             inspection; such as, collecting dust           reported to the District Manager. Through training ensure that
    11-003              samples by the Health Group. In                each COAL MINE INSPECTOR (CMI) is aware of these findings. A
     (ORM               addition, inspectors had excessive             record of training and a list of attendees will be reported to the
      11)               multiple visits to the same section,           District Manager. The ADM Technical and ADM enforcement will
                        which indicated AR time utilization            provide oversight to their respective supervisors concerning
                        was not optimized.                             efficient inspection activities and communications. The
                                                                       December 22, 2003 Memorandum for District Managers, CMS&H
                                                                       Memo No. HQ-03-063-A, will be consulted for guidance.
108 CMS&H D8 / DLR 2011 All required documentation of the           ID The requirement to inspect all equipment and to enter said
    Memo                EO1 inspection was not present in              equipment into the ITS will be reviewed with the enforcement
    No. 11-             the final report file. Reports were            personnel. The aforementioned review along with
     11-22              not documented in accordance                   management's expectation will be presented to ALL enforcement
     (ORM               with the requirements contained in             personnel under the direction of the ADM/SA/FO supervisors.
      4-3)              the General Coal Mine inspection
                        & Inspection Tracking System (ITS).
                        Not all of the equipment that was
                        indicated as inspected in the notes
                        had been properly documented
                        into the ITS (while instances were
                        found in all EO1's reviewed, the
                        most notable omissions were from
                        the Oct. 2010-March 2011 E-O1).

109 CMS&H D11 /          2011 Termination times shall not be        IEA    AADM/FO supervisors will review the requirements as outlined
    Memo    DLR               established for the convenience of           in the handbook for citation/order writing with ALL enforcement
    No. 11-                   the operator. Two equipment                  personnel.
     11-22                    77.1104 citations were issued in
     (ORM                     the morning and the termination              The ADM will review at least 50% of all citations for consistency
      4-3)                    time was established for the late            and adherence to the agency's policy and procedures. This will
                              afternoon. Both citations were               be in addition to the supervisors review.
                              issued as S&S, and warranted a
                              shorter termination time.
110 CMS&H D11 /          2011 Miner's opportunity to accompany      ID     DM/ADM district and agency expectations with ALL enforcement
    Memo    DLR               the inspector was not always                 personnel.
    No. 11-                   documented on the daily cover
     11-22                    sheet. Documentation that the
     (ORM                     miners' representative or a
      4-3)                    representative number of miners
                              were polled should be done for
                              every physical inspection.
111    Not     RM /      2011 Inspectors may not have              IWS The field office supervisor will track each inspector's weekend
      Listed   DLR            conducted inspections on all             and off-shift inspections and record the Mine ID, Event number,
                              working shifts or weekends.              date and arrival time and stop time for each weekend and off-
                                                                       shift inspection to the Rocky Mountain District each quarter until
                                                                       the issue has been addressed. This will be detailed in the
                                                                       quarterly report to the Rocky Mountain district management
                                                                       until the district management has determined this issue has
                                                                       been addressed.




                                                                                                         MSHA Faces Challenges
                                                                    39                                Report No. 05-12-002-06-001
                                                                    U.S. Department of Labor – Office of Inspector General


                                Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of     CY                 Finding                Type*                         Corrective Action
       No.
             Review
112    Not     RM /      2011 Documentation of the                   IEA The field office supervisor will hold a meeting where he will train
      Listed   DLR            citations/orders issued did not            the inspectors in the proper aspect of proper justification for
                              justify the gravity and negligence.        gravity and negligence. He will provide a sign in sheet for this
                                                                         training and spend additional time with inspectors requiring,
                                                                         additional training based on the key indicator report,
                                                                         observations made during citation reviews that are made by
                                                                         management. This may include but is not limited to, traveling
                                                                         with inspectors to provide "on the job training". These activities
                                                                         will be periodically reviewed by the district staff. This will be
                                                                         detailed in the quarterly report to the Rocky Mountain District
                                                                         management until the district management has determined this
                                                                         issue has been addressed.
113    Not     RM /      2011 Termination due dates and times        IEA The field office supervisor will monitor each citation due date
      Listed   DLR            were consistently too long or              and time closely and initial each citation issued. The supervisor
                              inappropriate for the type of              will send copies of all S&S citations with associated notes and
                              violations and corresponding               color photographs to the district that have a termination due
                              hazards.                                   date and time extending past the end of the shift the citation
                                                                         was issued, these will be sent in quarterly. The Field Office
                                                                         Supervisor will provide written comments and actions for
                                                                         violations he deems were not proper and include notes from
                                                                         meetings with inspection to discuss proper termination due
                                                                         dates and times. This will be detailed in the quarterly report to
                                                                         the Rocky Mountain District management until the district
                                                                         management has determined this issue has been addressed.
114    Not     RM /      2011 Health field notes did not show the     ID The field office supervisor will monitor each health field not for
      Listed   DLR            miners sources of exposures                proper documentation and completeness. These activities will be
                              between equipment checks and               periodically reviewed by district staff. The field office supervisor
                              did not document that what the             will initiate each health note and he will submit all health notes
                              equipment had recorded.                    that were reviewed and found not to be adequate along with
                                                                         notes from meetings with inspectors to discuss proper
                                                                         documentation. This will be detailed in the quarterly report to
                                                                         the Rocky Mountain District management until the district
                                                                         management has determined this issue has been addressed.
115    Not NE / DLR 2011 Following the review of inspection          IEA The field office supervisor will assemble relevant policy criteria,
      Listed             reports, and citation notes, and by             several examples of well documented citations notes and
                         observations on the mine site, it is            arrange for in office training on January 30, 2012, to thoroughly
                         clear that some citation note                   address deficiencies involving gravity and negligence
                         documentation lacked supporting                 justification. During the two months directly following this
                         facts necessary to clearly justify              training, the supervisor will review each citation note within each
                         gravity and negligence evaluations              inspectors report and provide specific feedback to each inspector
                         surrounding each individual                     indicating either positive or improvement needed
                         issuance of non S&S citations.                  determinations. At the end of each week, for a two month
                                                                         period, the supervisor will send a summarized memo to the
                                                                         Assistant District Manager indicating the office status of
                                                                         demonstrating adequate justification along with a few
                                                                         representative samples of citation notes that support following
                                                                         agency policy guidelines.
116    Not NE / DLR 2011 A review of inspection reports             IWS The field office supervisor will assemble all relevant agency
      Listed             combined with discussion with                   policy and mine data information regarding the field office mines
                         inspectors who had conducted                    working status. The supervisor conducted a meeting on January
                         most resent regular inspections of              30, 2012, with the all inspectors to remind them about the
                         the Security Quarry out of the                  agency policy to inspect mines that work on weekends. The
                         Warrendale office revealed                      inspectors will be provided mine information about mines that
                         weekend inspections were not                    work multi-shifts, along with six and seven days a week data and
                         done. This is inconsistent with the             collaboratively arrange with their supervisor a strategic plan to
                         2009 General Inspection                         ensure a sufficient number of inspections occur on weekends.
                         Procedures Handbook criteria.                   The supervisor will establish an action plan and monitor progress
                                                                         for the following 12 months. A memo is to be sent to the
                                                                         assistant district manager once every 6 months indicating their
                                                                         progress.



                                                                                                         MSHA Faces Challenges
                                                                     40                               Report No. 05-12-002-06-001
                                                               U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding              Type*                            Corrective Action
       No.
             Review
117    Not RM / OA 2009 Although the 103(i) spot                 IIP   Metal and Nonmetal (MNM) does not have a procedure
      Listed            inspections conducted during the               regarding the length of time an E-02 inspection must be
                        audit were thorough, past 103(i)               conducted. MNM will establish procedures addressing 103(i)
                        inspections were not. Insufficient             inspections and provide guidance to the districts. A
                        time was spent on these important              memorandum from the Administrator to the District Managers
                        inspections, and multiple E02                  has been drafted and is currently being reviewed by SOL. It will
                        inspections were often made in a               be issued as soon as the review process is complete.
                        single day. (District/FO)

118  Not RM / OA 2009 Interviews with inspectors indicate        T     All journeyman inspectors in the district have attended or are
    Listed            a general lack of refresher training             scheduled to attend journeyman retraining at the mining
                      for journeyman inspectors.                       academy during FY 2009, FY 2010, or FY 2011, with the majority
                      (District)                                       being trained by the end of FY 2010.
119 Not RM / OA 2009 Conditions observed and citations           IIP   All inspectors in the district received the additional training. The
    Listed            issued during this audit indicate                Green River staff, with the exception of one inspector, during the
                      that previous inspections were                   week of February 8, 2010. The absent inspector was attending
                      neither complete nor thorough at                 journeyman retraining at the mine academy during the week of
                      the mines audited. (FO/District)                 February 8, 2010. Additional field accompanied reviews have
                                                                       been conducted. The ADM conducted two field accompanied
                                                                       review with the field office supervisor in June, 2010. On March
                                                                       22, 2010 the DM and the ADM met with the field office staff to
                                                                       discuss audit findings and field office expectations.
120  Not RM / OA 2009 Evaluations of S&S, gravity,              IEA    All inspectors in the district will receive additional training on
    Listed            negligence during inspections did                properly citing and evaluating all violations found. The district
                      not appear commensurate with                     will contact the Mine Academy for assistance in developing this
                      the type of violations cited.                    training. The district office will review all citations and orders
                      (FO)(District)                                   issued by this field office in FY2010.
121 Not RM / OA 2009 Supervisor has not received any             T     The Field office supervisor is scheduled to receive
    Listed            retraining since assuming a                      comprehensive supervisory training at the mine academy in May,
                      supervisors’ position.                           2010. The assistant district manager will conduct several field
                                                                       activity reviews with the field office supervisor this Fiscal Year.
122    Not RM / OA 2009 Supervisor could not define criteria    IEA    The Field office supervisor is scheduled to receive
      Listed            for negligence.                                comprehensive supervisory training at the mine academy in May,
                                                                       2010. The assistant district manager will conduct several field
                                                                       activity reviews with the field office supervisor this Fiscal Year.

123    Not RM / OA 2009 Did not understand procedure             T     The Field office supervisor is scheduled to receive
      Listed            regarding inspection of equipment              comprehensive supervisory training at the mine academy in May,
                        not in operation or tagged out.                2010. The assistant district manager will conduct several field
                                                                       activity reviews with the field office supervisor this Fiscal Year.
124  Not RM / OA 2009 Supervisor and inspector were             IEA    All Supervisors and inspectors in the district will receive
    Listed            hesitant to issue citations for                  additional training on properly citing violations as described
                      hazards observed considering what                above and on Section 104 of the Mine Act. In addition, the
                      the operator’s cost would be or                  district office will review inspection reports and field activity
                      how the operator could correct the               reviews from this field office on a regular basis to ensure that
                      hazard.                                          this issue has been corrected.
125 Not RM / OA 2009 Form 7000-3 Condition or practice          IEA    All inspectors in the district will receive additional training on
    Listed            includes statements not in                       properly citing violations as described above. In addition, the
                      accordance to policy or citation                 district office will review inspection reports and field activity
                      and order writing handbook.                      reviews from this field office on a regular basis to ensure that
                                                                       this issue has been corrected.
126  Not RM / OA 2009 Form 7000-3 does not include a            IEA    All inspectors in the district will receive additional training on
    Listed            detailed description of the                      how to properly cite violations. In addition, the district office will
                      condition or practice(s) which                   review inspection reports and field activity reviews from this
                      causes and constitutes a violation               field office on a regular basis to ensure that this issue has been
                      or imminent danger.                              corrected.
127 Not RM / OA 2009 Mining operations need to be                IIP   Redistribution of mines to improve resource utilization is
    Listed            evaluated and redistribution of                  currently being evaluated at both the national and district levels.
                      mines to field offices in closer                 Appropriate adjustments should be completed by the end of FY
                      proximity to reduce travel time.                 2010.



                                                                                                       MSHA Faces Challenges
                                                                41                                  Report No. 05-12-002-06-001
                                                               U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding              Type*                           Corrective Action
       No.
             Review
128  Not RM / OA 2009 Quarries with Plants attached have         IIP   he field office has been and will continue to follow the policy
    Listed            separate Mine Identification                     addressing portable plants as addressed in Volume III of MSHA's
                      numbers. A review of these                       Program Policy Manual as stated. A review will be conducted to
                      operations should be conducted                   ensure the field office is in compliance with the policy. In this
                      and determine if one ID is                       case, the quarry and portable plant had mine ID's which were
                      sufficient for both the quarry and               consistent with the current policy.
                      the plant.
129 Not NE / OA 2009 Conditions observed and citations           IIP
                                                             All NE District's supervisors received Highwall Training on April 7,
    Listed            issued during this audit that          2010. Technical Support group assisted in the training of the
                      highwall ground conditions and         inspectors and staff. (1) On May 3, 2010, the Wyomissing North
                      mining methods that address            FO Supervisor was transferred to an inspector's position in the
                      compliance with maintaining safe       Warrendale FO. (2) All inspectors and district staff received High
                      ground conditions appear not to        Wall recognition and enforcement training. (3) Photos of all
                      have been addressed in previous        highwalls and Pits are now required on each inspection
                      inspections.                           regardless if enforcement action has been initiated.
130 Not NE / OA 2009 Evaluation of gravity, negligence,  IEA 1) On March 15, 2010 the DM provided additional training on
    Listed            number of persons affected and         proper levels of enforcement and evaluations of negligence,
                      level of enforcement do not appear     gravity, and number of persons affected to the Wyomissing
                      commensurate with the notes or         North and South supervisors. (2) On April 6, 2010, all NE district
                      the narrative of the citations.        supervisors attended a presentation by the Office of
                                                             Accountability at the NE district supervisor's meeting where the
                                                             importance of proper negligence, and gravity evaluations was
                                                             discussed. (3) On April 8, 2010 the DM, SSI, and CLR's provided
                                                             training to all of the NE district's supervisors on proper levels of
                                                             enforcement and evaluations of negligence, gravity, and the
                                                             number of persons affected, also during the supervisor's
                                                             meeting. (4) From May 1, 2010 to June 21, 2010, all inspectors
                                                             and district staff completed a series of six training sessions
                                                             provided from the Academy on proper levels of enforcement,
                                                             gravity and negligence evaluations, S&S and number of persons
                                                             affected. (5) On May 3, 2010, the Wyomissing North field office
                                                             supervisor was transferred to an inspector's position in the
                                                             Warrendale field office. The new supervisor will receive training
                                                             from the CLR's, SSI, ADM, and the DM.
131 Not NE / OA 2009 There was insufficient enforcement IEA (1) On March 15, 2010 the DM provided training on conducting
    Listed           focus during past inspections.          thorough and complete inspections, adequate completion of
                                                             FAR's, and effective use of time to the Wyomissing North and
                                                             South supervisors. (2) On April 6, 2010 all NE district supervisors
                                                             attended a presentation by the Office of Accountability at the NE
                                                             district's supervisors meeting where the importance of
                                                             conducting thorough and complete inspections, adequate and
                                                             proper completion of FAR reviews, and effective use of time was
                                                             emphasized. (3) On April 8, 2010 the DM, SSI, and CLR's provided
                                                             training to all of the NE district's supervisors on the
                                                             aforementioned topics. (4) On May 1, 2010 to June 21, 2010, all
                                                             inspectors and district staff completed a series of six training
                                                             sessions provided from the Academy on proper levels of
                                                             enforcement, conducting thorough and complete inspections,
                                                             and effective use of time.
132 Not NE / OA 2009 Site inspection time for previous  IWS 1) On March 15, 2010, the DM provided additional training on
    Listed           inspections at the Hamburg              conducting thorough and complete inspections, and effective
                     Division mine do not appear             use of time to the Wyomissing North and South supervisors, as a
                     appropriate for the mine size,          follow up to the Office of Accountability audit and subsequent
                     equipment or mine type.                 report. (2) On May 3, 2010 The Wyomissing North field office
                                                             supervisor was transferred to an inspector's position in the
                                                             Warrendale field office and has been replaced. (3) From May 1,
                                                             2010 to June 21, 2010, all inspectors and district staff completed
                                                             a series of six training sessions provided from the Academy on
                                                             proper levels of enforcement, conducting thorough and
                                                             complete inspections, and effective use of time.



                                                                                                     MSHA Faces Challenges
                                                                42                                Report No. 05-12-002-06-001
                                                               U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding              Type*                          Corrective Action
       No.
             Review
133    Not NE / OA 2009 The district should review the           T    (1) On January 7, 2010 the DM instructed the NE district
      Listed            status of intermittent and full-time          supervisors to properly classify mine status by first reviewing the
                        operations for accuracy.                      policy and definitions of mine status classification with their
                                                                      inspectors, and to ensure inspectors are properly reviewing mine
                                                                      status and making appropriate changes when warranted. (2)
                                                                      Field office supervisors have also posted the policy on the office
                                                                      bulletin boards, given inspectors copies to carry in the field on
                                                                      inspections activities, and continued to discuss this topic at
                                                                      weekly staff meetings to ensure procedures are correctly
                                                                      followed.
134    Not NE / OA 2009 Inspection site time during the         IWS (1) On March 15, 2010, the DM provided additional training on
      Listed            audit totaled 46.5 necessary to               conducting thorough and complete inspections, and effective
                        complete the regular inspections              use of time to the Wyomissing North and South supervisors, as a
                        with 40 citations issued at 57.5%.            follow up to the Office of Accountability audit and subsequent
                        Previous inspections averaged 15.8            report. (2) On May 3, 2010 The Wyomissing North field office
                        site time hours with an average of            supervisor was transferred to an inspector's position in the
                        4.5 citations issued.                         Warrendale field office and has been replaced. (3) From May 1,
                                                                      2010 to June 21, 2010, all inspectors and district staff completed
                                                                      a series of six training sessions provided from the Academy on
                                                                      proper levels of enforcement, conducting thorough and
                                                                      complete inspections, and effective use of time.
135    Not NE / OA 2009 Citations issued for conditions          IEA (1) All of the NE District's supervisors received highwall training
      Listed            observed during this audit indicate           on April 7, 2010. Technical support group assisted in the training
                        that mining methods and                       of the inspectors and staff. (2) June 21, 2010, all inspectors and
                        maintenance of safe ground                    district staff received highwall recognition and enforcement
                        conditions were not being                     training. Technical support group assisted in the training of the
                        addressed in previous inspections.            inspectors and staff. (3) The inspector received Journeyman
                        Citations were being extended to              training on February 2 through 11, 2010. The training included
                        allow excessive time for the                  proper documentation, extension, and termination of citations
                        operator to correct the hazard by             and orders. (4) All of the inspectors in the Wyomissing South
                        scaling.                                      Field office received additional training on June 28, 2010,
                                                                      conducted by the supervisor, specifically addressing extensive
                                                                      termination and extension times from the citation and order
                                                                      writing handbook. (5) Photos of all highwalls and Pits are now
                                                                      required on each inspection regardless if enforcement action has
                                                                      been initiated.
136  Not NE / OA 2009 Guards observed were mostly                 IIP (1) The inspector specifically mentioned in the checklist items
    Listed            providing minimum protection                    received two weeks of Journeyman training at the Academy on
                      from moving machine parts, and                  February 2-11, 2010. The training included a session on
                      few resembled the type of                       equipment guarding. (2) All of the inspectors in the Wyomissing
                      guarding recommended in the                     South Field office received training on June 28, 2010, conducted
                      Guarding Guide Book. Several were               by the supervisor, specifically utilizing the guarding handbook
                      constructed and/or mounted in a                 and the new guarding power point, developed by headquarters.
                      manner that created the hazard of
                      the guard falling on miners.
137 Not NE / OA 2009 On-site inspection time for                 IIP   (1) The inspector specifically mentioned in the checklist items
    Listed            previous inspections at the                      received two weeks of Journeyman training at the Academy on
                      Weaverland Quarry does not                       February 2-11, 2010. The training included proper levels of
                      appear appropriate for the mine                  enforcement, conducting thorough and complete inspections,
                      size, equipment or mine type.                    and effective use of time. (2) On March 15, 2010, the DM
                                                                       provided additional training on conducting thorough, and
                                                                       complete inspections, and effective use of time to the
                                                                       Wyomissing North and South Supervisors, as a follow-up to the
                                                                       Office of Accountability audit and subsequent report . (3) From
                                                                       May 1, 2010, to June 21, 2010, all inspectors and district staff
                                                                       completed a series of six training sessions provided by the
                                                                       Academy on proper levels of enforcement, conducting thorough
                                                                       and complete inspections, and effective use of time.




                                                                                                     MSHA Faces Challenges
                                                                43                                Report No. 05-12-002-06-001
                                                               U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding              Type*                            Corrective Action
       No.
             Review
138    Not NE / OA 2009 The district should review the           T     (1) On January 7, 2010, the DM instructed the NE district
      Listed            status of intermittent and full-time           supervisors to properly classify mine status by first reviewing the
                        operations for accuracy. A review              policy and definitions of mine status classification with their
                        of man-hour reports for some                   inspectors, and to insure inspectors are properly reviewing mine
                        operations listed in intermittent              status and making appropriate changes when warranted. (2)
                        status indicate they should be                 Field Office supervisors have also posted the policy on the office
                        classified as full-time.                       bulletin boards, given inspectors copies to carry in the field on
                                                                       inspection activities, and continued to discuss this topic at
                                                                       weekly staff meetings to ensure procedures are correctly
                                                                       followed.
139    Not NE / OA 2009 Inspection reports indicate the          SR    On June 22, 2010, the districted evaluated the rotation of all the
      Listed            District and Field Office is not               inspectors in the Wyomissing North and South Field offices. A
                        adhering to MSHA policy regarding              meeting was conducted by the DM with the Wyomissing South
                        the rotation of mine assignments.              and North supervisors on June 22, 2010 to discuss the details of
                                                                       rotation of mine assignments. the results of the rotation
                                                                       evaluation, and to rectify the inconsistencies. The DM also sent
                                                                       a message to all supervisors and district staff mandating policy
                                                                       compliance and procedures for rotating mine assignments.
140    Not NE / OA 2009 Several citations were issued           IEA    (1) The inspector specifically mentioned in the checklist items
      Listed            during the audit for conditions that           received two weeks of Journeyman training at the Academy on
                        appeared to have existed for                   February 2-11, 2010. The training included proper levels of
                        extended period of time but had                enforcement, conducting thorough and complete inspections,
                        not been identified and addressed.             and effective use of time. (2) On March 15, 2010, the DM
                                                                       provided additional training on conducting complete and
                                                                       thorough inspections, proper levels of enforcement and
                                                                       evaluations of negligence, gravity, and number of persons
                                                                       affected to the Wyomissing supervisors and inspectors. (3) On
                                                                       April 6, 2010, all NE district supervisors attended a presentation
                                                                       by the Office of Accountability at the NE districts supervisor's
                                                                       meeting where the importance of conducting complete and
                                                                       thorough inspections, proper negligence, and gravity evaluations
                                                                       was discussed. (4) On April 8, 2010, the DM, SSI, and CLR's
                                                                       provided training to all of the NE district's supervisors on proper
                                                                       levels of enforcement and evaluations of negligence, gravity, and
                                                                       the number of persons affected. (5) From May 1, 2010 to June
                                                                       21, 2010, all inspectors and district staff completed a series of six
                                                                       training sessions provided from the Academy on conducting
                                                                       complete and thorough inspections, proper levels of
                                                                       enforcement, gravity and negligence evaluations, S&S, and
                                                                       number of persons affected.
141    Not NE / OA 2009 Citations issued for violations not     IEA    (1) The inspector specifically mentioned in the checklist items
      Listed            always properly evaluated                      received two weeks of Journeyman training at the Academy on
                        regarding gravity, negligence and              February 2-11, 2010. The training included proper levels of
                        type of action.                                enforcement, conducting thorough and complete inspections,
                                                                       and effective use of time. (2) On March 15, 2010, the DM
                                                                       provided additional training on conducting complete and
                                                                       thorough inspections, proper levels of enforcement and
                                                                       evaluations of negligence, gravity, and number of persons
                                                                       affected to the Wyomissing supervisors and inspectors. (3) On
                                                                       April 6, 2010, all NE district supervisors attended a presentation
                                                                       by the Office of Accountability at the NE districts supervisor's
                                                                       meeting where the importance of conducting complete and
                                                                       thorough inspections, proper negligence, and gravity evaluations
                                                                       was discussed. (4) On April 8, 2010, the DM, SSI, and CLR's
                                                                       provided training to all of the NE district's supervisors on proper
                                                                       levels of enforcement and evaluations of negligence, gravity, and
                                                                       the number of persons affected. (5) From May 1, 2010 to June
                                                                       21, 2010, all inspectors and district staff completed a series of six
                                                                       training sessions provided from the Academy on conducting
                                                                       complete and thorough inspections, proper levels of
                                                                       enforcement, gravity and negligence evaluations, S&S, and


                                                                                                      MSHA Faces Challenges
                                                                44                                 Report No. 05-12-002-06-001
                                                                U.S. Department of Labor – Office of Inspector General


                              Deficiencies and Corrective Actions in MSHA Accountability Review Reports
             District/
      Report
No.          Level of    CY               Finding               Type*                           Corrective Action
       No.
             Review
                                                                        number of persons affected.
142    Not D11 / OA 2010 The Uniform Mine Files were not         ID     Staff Assistant reviewed Uniform Mine File for completed plan
      Listed             being maintained as per the                    reviews 1/25/2011. Health supervisor instructed specialists to
                         Uniform Mine File handbook.                    provide copies (2000-86) for Field Office assistants for inclusion
                                                                        in the UMF. Review sheet for Field Office assistants provided
                                                                        along with instructions for review. Completed 7/1/2010.
143  Not D11 / OA 2010 During the audit, the inspector was       IIP    Magnahelic gauges and Pilot tubes ordered and distributed
    Listed             observed using the company's test                7/27/2010. Refresher training on use conducted 7/12/2010.
                       equipment (Pilot tube and
                       Magnahelic Gauge) instead of the
                       Agency's equipment. Equipment
                       that is owned and properly
                       maintained by MSHA should be
                       used by inspection personnel.
144 Not D11 / OA 2010 Inspector notes did not always             IEA    (1) Supervisory Staff Meeting conducted August 18, 2010. Issues
    Listed             contain sufficient documentation                 reviewed by District Manager and Assistant District Manager. (2)
                       regarding the degree of operator                 Solicitor training conducted for ALL enforcement personnel on
                       negligence. (Example: The                        August 25, 2010. Review and corrective actions have been
                       inspector documented that the                    reviewed with all enforcement personnel on this date.
                       section foreman "probably knew"
                       of the violation's existence, but this
                       could not be proven. The inspector
                       indicated however, that if the
                       foreman did not know he should
                       have known). Negligence could
                       have been better documented by
                       describing why the agent had a
                       reason to know. The inspector
                       could have established the
                       presence of the agent by
                       describing his normal work or
                       travel area.
145 Not D8 / OA 2010 A review of the two previous E01            IEA    Training will be provided at all field office staff meetings on
    Listed             inspections at the subject mines                 gravity, negligence, number of persons affected, and level of
                       indicate that evaluations for                    enforcement. Attachment No. 3 to the Accountability audit will
                       gravity, negligence, number of                   be reviewed during this training. The ADM, CLR, and the field
                       persons affected, and the overall                office supervisor will conduct the training.
                       level of enforcement is not
                       commensurate with the nature of                  ADM-Enforcement will review at least 10% of the E01 citations
                       the violations cited.                            and orders issued.


146  Not D8 / OA 2010 Reports of Field Activity Reviews          SR     Training will be conducted on 10/4/2010 during the District's
    Listed            and Accompanied Activities did not                monthly supervisor meeting in which the requirements of the
                      contain sufficient documentation                  Coal Mine Safety and Health Supervisor Handbook Number
                      to give feedback to inspection                    AH08-III-1(2) will be reviewed.
                      personnel for improvement.
147 Not D8 / OA 2010 The required number of annual               SR     Training will be provided for supervisors and managers on the
    Listed            supervisory/managerial mine visits                requirements of CMS&H Memo No. HQ-08-081 (SEC-103).
                      were not conducting during FY                     Supervisors will be required to make visits to surface mines and
                      2009.                                             facilities.




                                                                                                       MSHA Faces Challenges
                                                                 45                                 Report No. 05-12-002-06-001
                                                                U.S. Department of Labor – Office of Inspector General


                               Deficiencies and Corrective Actions in MSHA Accountability Review Reports
              District/
       Report
 No.          Level of    CY               Finding              Type*                           Corrective Action
        No.
              Review
 148    Not D8 / OA 2010 Numerous 103(i) inspections were         IIP   Training will be conducted on 10/4/2010 during the District's
       Listed            conducted on consecutive (back to              monthly supervisor meeting.
                         back) Mondays, Tuesdays, and
                         Wednesdays at mines in District 8.             The FOS will conduct the training during the regular scheduled
                                                                        monthly staff meeting

                                                                        Prior to any 103(i) inspections, a review of the previous "spot"
                                                                        inspection will be conducted as to the day and location it was
                                                                        conducted.

                                                                        An additional updated spot inspection tracking system will be
                                                                        initiated.
 149    Not D8 / OA 2010 The MSIS system was not being            ID    A review of the mine information will be conducted. Daily
       Listed            kept up to date regarding methane              methane liberation will be updated on the Mine Information
                         liberation for mines classified as             Form and MSIS.
                         103(i) spot inspection.
                                                                        Supervisors will be re-trained the necessity of keeping the
                                                                        information on the Mine Information Form up-to-date and input
                                                                        into MSIS.
 150  Not D8 / OA 2010 The Special Investigations                 IIP   Two Authorized Representatives are in the process of training for
     Listed            Department closed at least three                 collateral duty Special Investigators. This will provide additional
                       110(c) investigations by citing a                resources to process 110 ( c ) cases. One Authorized
                       "lack of resources" during FY2009.               Representative has completed training.
 151 Not D8 / OA 2010 It could not be determined if the           SR    The District Manager will monitor the effectiveness of the most
     Listed            effectiveness of the corrective                  recent District review and Office of Accountability review.
                       action plans resulting from
                       Headquarters and District level
                       Accountability Reviews conducted
                       during FY2009 were being
                       monitored by the District Manager
                       on an ongoing basis.
 152 Not D8 / OA 2010 A conflict of interest exists in the        SR    The inspector was moved to a different supervisor. A waiver to
     Listed            Vincennes Field Office in that an                allow relatives to work in the same office was submitted and
                       inspector is being supervised by a               approval of the waiver is anticipated October 1, 2010.
                       close relative.
 153 Not D8 / OA 2010 Field notes in a previous inspection        ID    All inspectors in the Denver field office received additional
     Listed            report did not document areas of                 training for documenting complete and thorough inspections.
                       the quarry/pit being inspected,                  The General Inspection procedures handbook was discussed and
                       while health survey field notes                  reviewed with the Denver field office staff.
                       indicated persons were sampled in
                       the quarry/pit.




Finding Type Legend:

ID        Inspection Documentation
IEA       Issuances/Enforcement Activities
IIP       Inspection / Investigation Process
IWS       Inspection Work Shift / Hours
MMP       Mine Map/Plans
SR        Supervisory Review
SS        Sampling / Survey
T         Training




                                                                                                       MSHA Faces Challenges
                                                                 46                                 Report No. 05-12-002-06-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                    Exhibit 5
MSHA's Recurring Deficiencies by Categories

The graph below lists by category deficiencies in our sample that recurred in CYs 2009
– 2011. We classified the deficiencies using the following seven categories: supervisory
review, issuances of citations, Uniform Mine File, inspections, training, 103(i) spot
inspections and inadequate documentation. We also listed the number of times a
deficiency occurred by category during each calendar year. We excluded three
categories – Uniform Mine File, training and 103(i) spot inspections because these
deficiencies did not occur in all three calendar years.




                                                                      MSHA Faces Challenges
                                           47                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              48                      Report No. 05-12-002-06-001
              U.S. Department of Labor – Office of Inspector General




Appendices





                                          MSHA Faces Challenges
               49                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              50                      Report No. 05-12-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The Federal Mine Safety and Health Act of 1977 (Mine Act), as amended by the Mine
Improvement and New Emergency Response (MINER) Act of 2006, governs the Mine
Safety and Health Administration (MSHA). MSHA is responsible for enforcing Federal
laws and regulations and implementing policies intended to protect the safety and
health of the Nation’s miners.

The Assistant Secretary for Mine Safety and Health directed the administrators for
CMS&H and MNMS&H to implement an accountability program to validate
management’s effectiveness by conducting reviews of field activities and programs. In
response, MSHA established an accountability program in 1989. Recognizing the
importance of the review process, in 2007 MSHA established the Office of
Accountability (OA), which conducts audits and field reviews of the inspection and
enforcement process and monitors the implementation of the accountability program. In
2008, MSHA revised its accountability program after Sago, Aracoma, and Darby internal
reviews were critical of the agency’s pre-accident enforcement activities. The purpose of
the revised accountability program was to better focus accountability review activities on
key indicators of MSHA’s performance and to prioritize limited accountability review
resources based on risk. This meant that MSHA would direct accountability reviews at
those districts, field offices, and associated enforcement personnel where information
indicated potential performance issues.

On February 8, 2012, MSHA announced a re-organization designed to centralize its
oversight of certain cross-cutting, compliance-related actions. MSHA’s Office of
Assessments, Accountability, Special Enforcement, and Investigations (OAASEI) will
incorporate the management, support, and coordination of agency headquarters
accountability functions and special enforcement strategies as well as both routine and
special assessments. Under this reorganization, MSHA will incorporate within the
OAASEI current headquarters functions for the Office of Accountability.




                                                                       MSHA Faces Challenges
                                            51                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              52                      Report No. 05-12-002-06-001
                                             U.S. Department of Labor – Office of Inspector General


                                                                                    Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The OIG conducted a performance audit to answer the following questions:

     1. Did MSHA implement corrective actions to address the recommendations
        in the OIG’s 2007 audit report?

     2.	 Did MSHA implement corrective actions to address the recommendations
         in its accountability reports?

Scope

The OIG audited MSHA’s accountability program and analyzed accountability reports
issued during CYs 2009 through 2011. We performed audit work at MSHA’s National
Office in Arlington, VA, and district offices in Birmingham, AL; Denver, CO;
Vincennes, IN; and Warrendale, PA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our objectives, we obtained an understanding of MSHA’s Accountability
Review Process. We also reviewed Federal laws and regulations; reviewed MSHA’s
policies and procedures; conducted walkthroughs of the accountability process;
interviewed key management and support personnel at MSHA Headquarters, Districts,
and Field Offices; and analyzed and identified key critical decision making and control
processes. Finally, we selected statistical samples of deficiencies from accountability
reviews and obtained and reviewed, if available, support documentation for corrective
actions implemented by MSHA.

Sampling Plan

While we reviewed all corrective actions for all 14 recommendations in the OIG’s 2007
audit report to determine whether MSHA followed the corrective actions, we used a
statistical and judgmental sampling approach to test CMS&H, MNMS&H, and OA audit
report findings. Specifically, we tested: (a) a statistical sample of findings to determine if
MSHA implemented corrective actions, and (b) a judgmental sample of findings taken
from the statistical sample to determine if the corrective actions were effective.

                                                                         MSHA Faces Challenges
                                              53                      Report No. 05-12-002-06-001
                                           U.S. Department of Labor – Office of Inspector General




CMS&H and MNMS&H Accountability Reviews

(1) Implementation Test

We used a three-stage statistical sampling approach to test CMS&H and MNMS&H
accountability reviews. In the first stage, we randomly selected 4 districts from the
universe of 17 districts (11 CMS&H and 6 MNMS&H). MSHA required each district to
receive an annual accountability review. MSHA issued 94 accountability reviews during
CY 2009-2011 (42 in CY 2009, 29 in CY 2010, and 23 in CY 2011).

In the second stage, for each of the 4 districts randomly selected, we selected 2 field
offices (one high risk and one low risk), resulting in the selection of 8 field offices. We
defined as high risk those field offices MSHA reviewed more than once. We considered
a field office to be low risk if MSHA selected it only once for review. We selected field
offices instead of districts because MSHA officials informed us that the documentation
supporting the implementation of corrective actions was located in its field offices.

In the third stage, for each of the 8 field offices randomly selected, we statistically
selected a sample of findings from accountability reports issued for those field offices.
We stratified this sample based on the seven categories of recurring findings identified
by MSHA. The audit universe was based on the 17 MSHA districts (11 CMS&H and 6
MNMS&H). The sample size (4 districts) was determined using a 95 percent confidence
level and a ± 10 percent sampling precision. We tested a total of 153 deficiencies in 19
accountability reports from the four districts.

(2) Effectiveness Test

From this statistical sample, we selected a judgmental sample of findings to determine if
the corrective actions remedied the deficiencies. For this sample, we selected high risk
findings that the OIG team had the technical expertise to test for effectiveness.
Judgmental samples cannot be projected to the overall universe.

Office of Accountability Reviews

(1) Implementation Test

From the 4 districts and 8 field offices statistically selected to test CMS&H and
MNMS&H accountability reviews, we selected and tested a statistical sample of OA
audit findings from MSHA’s accountability reports to determine if MSHA implemented
the corrective actions.

(2) Effectiveness Test

From this statistical sample, we selected a judgmental sample of findings to determine if
the corrective actions remedied the deficiencies. For this sample, we selected high risk


                                                                       MSHA Faces Challenges
                                            54                      Report No. 05-12-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


findings that the OIG team has the technical expertise to test for effectiveness.
Judgmental samples cannot be projected to the overall universe.

Reliability Assessment

To determine the reliability of MSHA data used to prepare key indicator reports for
conducting internal risk assessments and scheduling accountability reviews, we used
an approach consistent with the Government Accountability Office’s Assessing the
Reliability of Computer-Processed Data (GAO-09-680G, July, 2009, External Version I).
We confirmed our understanding of the data MSHA used through interviews,
walkthroughs, and documentation reviews. We did not rely on any MSHA data to
support findings, conclusions, or recommendations.

Internal Control

In planning and performing our audit, we considered MSHA’s internal control relevant to
our audit objectives by obtaining an understanding of those controls, and assessing
control risk for the purpose of achieving our objectives. The objective of our audit was
not to provide assurance of the internal control; therefore, we did not express an opinion
on MSHA’s internal control. Our consideration of internal control for administering the
accountability program would not necessarily disclose all matters that might be
significant deficiencies. Because of the inherent limitations on internal control, or
misstatements, noncompliance may occur and not be detected.

Criteria

Federal Mine Safety and Health Act of 1977, Sections 103, 104, and 505

Mine Improvement and New Emergency Response Act of 2006

30 Code of Federal Regulations, Parts 56-58 and 70-90

MSHA Program Policy Manual, Volumes 4 and 5

Accountability Program Handbook (March 2008)

MSHA Coal General Inspection Procedures Handbook (January 2008)

MSHA Metal and Nonmetal General Inspection Procedures Handbook (October 2009)

MSHA Citation and Order Writing Handbook for Coal Mines and Metal and
Nonmetal Mines (March 2008)

Coal Safety and Health Supervisor’s Handbook (November 2008)


Metal and Nonmetal Safety and Health Supervisor’s Handbook (June 2009)



                                                                       MSHA Faces Challenges
                                            55                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              56                      Report No. 05-12-002-06-001
                                    U.S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

AA              Accompanied Activity
ADME            Assistant District Manager Enforcement
CMS&H           Coal Mine Safety and Health
CY              Calendar Year
DM              District Manager
FARs            Field Activity Reviews
FY              Fiscal Year
MINER Act       Mine Improvement and New Emergency Response Act of 2006
MNMS&H          Metal and Nonmetal Mine Safety and Health
MSHA            Mine Safety and Health Administration
MSIS            MSHA Standardized Information System
NIOSH           National Institute for Occupational Safety and Health
OA              Office of Accountability
OAASEI          Office of Assessments, Accountability, Special Enforcement,
                 and Investigations
OIG             Office of Inspector General
SOP             Standard Operating Procedures
S&S             Significant and Substantial
UBB             Upper Big Branch




                                                                MSHA Faces Challenges
                                     57                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              58                      Report No. 05-12-002-06-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix D
MSHA’s Response to the Draft Report




                                                                  MSHA Faces Challenges
                                       59                      Report No. 05-12-002-06-001
U.S. Department of Labor – Office of Inspector General




                            MSHA Faces Challenges
 60                      Report No. 05-12-002-06-001
U.S. Department of Labor – Office of Inspector General




                            MSHA Faces Challenges
 61                      Report No. 05-12-002-06-001
U.S. Department of Labor – Office of Inspector General




                            MSHA Faces Challenges
 62                      Report No. 05-12-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix E
Acknowledgments

Key contributors to this report were Nicholas Christopher (Audit Director), S. Marisela
Sookraj (Audit Manager), Donald Evans (Auditor-in-Charge), Norlean Renee Kelly,
Charmane Miller, Janet Cucunato, Elizabeth Garcia, and Steve Witherspoon
(Reviewer).




                                                                       MSHA Faces Challenges
                                            63                      Report No. 05-12-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                         MSHA Faces Challenges
              64                      Report No. 05-12-002-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig. dol.gov/hotlineform.htm
Email: hotline@ oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
Room            S-5506
         Washington, D.C. 20210
